No. 20-___
IN THE

JOHN DOE 7, JANE DOE 7, JUANA DOE 11, MINOR DOE
11A, SEVEN SURVIVING CHILDREN OF JOSE LOPEZ 339,
AND JUANA PEREZ 43A,
v.

Petitioners,

CHIQUITA BRANDS INTERNATIONAL, INC.,
Respondent.
On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Eleventh Circuit
PETITION FOR A WRIT OF CERTIORARI
Marco B. Simons
Lindsay A. Bailey
Richard L. Herz
Marissa A. Vahlsing
Kelsey M. Jost-Creegan
EARTHRIGHTS
INTERNATIONAL
1612 K St. NW, Suite 800
Washington, D.C. 20006

Kevin K. Russell
Counsel of Record
GOLDSTEIN & RUSSELL, P.C.
7475 Wisconsin Ave.
Suite 850
Bethesda, MD 20814
(202) 362-0636
kr@goldsteinrussell.com

Counsel for Petitioners
[List of counsel continued on inside cover]

Paul L. Hoffman
SCHONBRUN SEPLOW
HARRIS HOFFMAN &
ZELDES LLP

John Scarola
SEARCY DENNEY SCAROLA
BARNHART & SHIPLEY,
P.A.

Agnieszka M. Fryszman
Benjamin D. Brown
Theodore M. Leopold
Leslie M. Kroeger
COHEN MILSTEIN SELLERS
& TOLL PLLC

James K. Green
JAMES K. GREEN, P.A.

Judith Brown Chomsky
LAW OFFICE OF JUDITH
BROWN CHOMSKY

Terrence P. Collingsworth
INTERNATIONAL RIGHTS
ADVOCATES

Arturo Carrillo
COLOMBIAN INSTITUTE OF
INTERNATIONAL LAW

Counsel for Petitioner
Juana Perez 43A

Counsel for Petitioners
John Doe 7 and Jane Doe 7
William J. Wichmann
LAW OFFICES OF WILLIAM J.
WICHMANN, P.A
Counsel for Petitioners
Juana Doe 11 and Minor
Doe 11A

Counsel for Petitioners
Seven Surviving Children
of Jose Lopez 339

QUESTION PRESENTED
Rule 26(c) of the Federal Rules of Civil Procedure
allows courts to grant protective orders, for good cause
shown, regarding information produced by a litigant or
third party. Such orders may be granted where
disclosure of that information could cause harm, e.g.,
for confidential business information such as trade
secrets. Here, the district court granted a protective
order regarding the plaintiffs’ identities and private
information, to protect them from threats of violence.
Although the defendants initially stipulated to this
protection, on the eve of summary judgment, they
moved to lift the protections so they could disclose
plaintiffs’ names and other identifying information to
the public. The district court granted their motion to
remove the protection, holding that plaintiffs bore, but
did not sustain, the burden of proving the protections
remained necessary.
Deepening a three-way circuit conflict, the
Eleventh Circuit held that although movants
ordinarily bear the burden to show good cause when
they seek to modify a protective order, the opposite
rule applies when the order was stipulated by the
parties. In that circumstance, the court held, the party
opposing modification must show good cause to
continue the protection.
The question presented is:
Does a party seeking to modify a stipulated Rule
26(c) protective order bear the burden of showing good
cause for the modification?

ii
PARTIES TO THE PROCEEDING
Petitioners are listed in the caption.
Jane Doe 46 was also a plaintiff-appellant in the
court of appeals. She is separately represented and is
not participating in this petition.
The following are also listed as plaintiffsappellants in the court of appeals; with the exception
of the Petitioners listed in the caption, they were not
subject to the district court order on appeal, and are
not Petitioners here:
In district court No. 07-cv-60821:
Antonio Gonzalez Carrizosa, Julie Ester Durango
Higita, Liliana Maria Cardona, Maria Patricia
Rodriguez, Ana Francisca Palac Moreno, et al.
In district court No. 08-cv-80421:
John Doe I, individually and as representative of
his deceased father John Doe 2, Jane Doe 1,
individually and as representative of her deceased
mother Jane Doe 2, John Doe 3, individually and as
representative of his deceased brother John Doe 4,
Jane Doe 3, individually and as representative of her
deceased husband John Doe 5, Minor Does #1-4, by
and through their guardian John Doe 6, individually
and as representative of their deceased mother Jane
Doe 4, Jane Doe 6, Jane Doe 5, et. al.
In district court No. 08-cv-80465:
Jane/John Does (1-144), as Legal Heirs to Peter
Does 1-144, et. al.
In district court No. 08-cv-80508:
Jose Leonardo Lopez Valencia, et al.

iii
In district court No. 17-cv-81285:
Does, 1-11
In district court No. 18-cv-80248:
John Doe #1, individually and as representative of
his deceased father John Doe 2, et al.
Petitioners believe that the only Respondent is
Chiquita Brands International, Inc. The opinion of the
court of appeals also lists Chiquita Fresh North
America LLC as a defendant-appellee, in district court
No. 07-cv-60821 only. Petitioners who are plaintiffs in
other district court actions have not sued Chiquita
Fresh North America LLC. No counsel filed a notice of
appearance for Chiquita Fresh North America LLC at
the court of appeals.

iv
RELATED PROCEEDINGS
Proceedings directly on review:
Carrizosa v. Chiquita Brands International Inc.,
No. 19-11494 (11th Cir. July 16, 2020)
In re: Chiquita Brands International, Inc. Alien Tort
Statute and Shareholder Derivative Litigation,
No. 08-md-01916-KAM (S.D. Fla. April 11, 2019),
a multi-district litigation including the following
individual cases:
No. 07-cv-60821
No. 08-cv-80421
No. 08-cv-80465
No. 08-cv-80508
No. 17-cv-81285
No. 18-cv-80248
Other related proceedings:
Cardona v. Chiquita Brands Int’l, Inc., No. 12-14898
(11th Cir. July 24, 2014)
Doe v. Chiquita Brands Int’l, Inc., No. 19-13926
(11th Cir.)
Additional related cases in the In re: Chiquita multidistrict litigation, No. 08-md-01916-KAM (S.D.
Fla.):
No. 08-cv-80480
No. 10-cv-60573
No. 10-cv-80652
No. 11-cv-80404
No. 11-cv-80405
No. 13-cv-80146

v
No. 17-cv-80323
No. 17-cv-80475
No. 17-cv-80535
No. 17-cv-80547
No. 18-cv-80248
No. 18-cv-80800
No. 20-cv-82222
No. 21-cv-60058

vi
TABLE OF CONTENTS
QUESTION PRESENTED ........................................... i
PaRTIES TO THE PROCEEDING ............................. ii
RELATED PROCEEDINGS....................................... iv
TABLE OF AUTHORITIES ..................................... viii
PETITION FOR A WRIT OF CERTIORARI .............. 1
OPINIONS BELOW .................................................... 1
JURISDICTION........................................................... 1
RELEVANT STATUTORY PROVISIONS ................. 1
INTRODUCTION ........................................................ 2
STATEMENT OF THE CASE..................................... 4
REASONS FOR GRANTING THE WRIT ................ 14
I.

The Decision Below Deepens A Three-Way
Circuit Split ......................................................... 15
A. The Second And Seventh Circuits
Impose A Heightened Burden Of Proof
On Those Seeking Modification Of
Stipulated Protective Orders ....................... 15
B. The Ninth And Eleventh Circuits Put
The Burden On The Non-Movant ................ 17
C. The Third Circuit Takes An
Intermediate Approach ................................ 18

II. This Court Should Grant Certiorari To
Resolve The Circuit Conflict ............................... 19
A. The Petition Presents A Frequently
Recurring And Important Issue In Civil
Litigation ...................................................... 19

vii
B. The Circuit Split Is Intolerable And
Requires Action By The Court ..................... 24
III. This Court Should Grant Certiorari Because
The Eleventh Circuit’s Decision Is Wrong,
And Puts Petitioners’ Lives At Risk ................... 26
A. The Burden Of Proof Ordinarily Falls
On The Party Seeking Relief ....................... 26
B. Parties Who Stipulate To A Protective
Order Upon Which Others Have Relied
Should Be Held To Their Agreement
Unless They Can Show Good Cause For
Modification .................................................. 27
C. The Eleventh Circuit’s Rule Will
Discourage Discovery In Reliance On
Protective Orders, And Stipulation To
Those Orders................................................. 29
D. The Eleventh Circuits’ Reasons For Its
Counterproductive Rule Are
Unpersuasive ................................................ 30
E. The Application Of The Eleventh
Circuit’s Rule In This Case Puts The
Petitioners’ Lives At Risk............................. 32
CONCLUSION .......................................................... 34

viii
TABLE OF AUTHORITIES
Cases
Alfandary v. Nikko Asset Mgmt.,
2021 U.S. Dist. LEXIS 77701
(S.D.N.Y. Apr. 22, 2021) ........................................ 20
Allscripts Healthcare, LLC v. DR/Decision Res.,
LLC,
440 F. Supp. 3d 71 (D. Mass. 2020) ....................... 21
Am. Tel. & Tel. Co. v. Grady,
594 F.2d 594 (7th Cir. 1978) .................................. 16
Apeldyn Corp. v. AU Optronics Corp.,
No. 08-568-SLR, 2012 U.S. Dist. LEXIS 85692
(D. Del. June 13, 2012)........................................... 22
Authentic Apparel Grp., LLC v. United States,
989 F.3d 1008 (Fed. Cir. 2021) .............................. 27
Bayer AG v. Barr Labs.,
162 F.R.D. 456 (S.D.N.Y. 1995) ............................. 17
Beckman Indus. v. Int’l Ins. Co.,
966 F.2d 470 (9th Cir. 1992) .................................. 17
Birden v. City of Waterloo,
No. 15-CV-2062-LRR, 2016 U.S. Dist. LEXIS
73868 (N.D. Iowa June 7, 2016) ............................ 21
Blount v. Major,
No. 4:15 CV 322 DDN, 2016 U.S. Dist. LEXIS
66545 (E.D. Mo. May 20, 2016) ............................. 21
Bobrick Washroom Equip., Inc. v. Scranton
Prods.,
No. 3:14-CV-00853, 2017 U.S. Dist. LEXIS
32894 (M.D. Pa. Mar. 8, 2017) ............................... 21
Braun Corp. v. Vantage Mobility Int’l, LLC,
265 F.R.D. 330 (N.D. Ind. 2009) ............................ 22

ix
Brigham Young Univ. v. Pfizer, Inc.,
281 F.R.D. 507 (D. Utah 2012) ........................ 20, 22
Brightedge Techs., Inc. v. Searchmetrics,
No. 14-cv-01009-WHO, 2015 U.S. Dist. LEXIS
3994 (N.D. Cal. Jan. 13, 2015) ............................... 22
Choi v. 8th Bridge Capital, Inc.,
No. 2:17-cv-08958-CAS-AFMx, 2021 U.S. Dist.
LEXIS 63540 (C.D. Cal. Mar. 30, 2021) ................ 20
Diamond Consortium, Inc. v. Manookian,
No. 4:16-CV-00094, 2017 U.S. Dist. LEXIS
82692 (E.D. Tex. May 31, 2017) ............................ 21
Doe v. Anderson,
No. 15-cv-13852, 2017 U.S. Dist. LEXIS
152770 (E.D. Mich. Sep. 20, 2017)......................... 21
E.I. DuPont De Nemours & Co. v. Kolon Indus.
(In re Kolon Indus.),
479 Fed. Appx. 483 (4th Cir. 2012)........................ 18
Educ. Assistance Corp. v. Zellner,
827 F.2d 1222 (8th Cir. 1987) ................................ 26
Factory Mut. Ins. Co. v. Insteel Indus.,
212 F.R.D. 301 (M.D.N.C. 2002) ............................ 18
Father M. v. Various Tort Claimants (In re
Roman Catholic Archbishop),
661 F.3d 417 (9th Cir. 2011) ...................... 17, 18, 30
FTC v. Abbvie Prods. LLC,
713 F.3d 54 (11th Cir. 2013) .................................. 15
FurnitureDealer.net, Inc. v. Amazon.com, Inc.,
No. 18-cv-0232, 2019 U.S. Dist. LEXIS 234307
(D. Minn. Nov. 7, 2019) .......................................... 21
Geller v. Branic Int’l Realty Corp.,
212 F.3d 734 (2d Cir. 2000) ................................... 16

x
H.L. Hayden Co. v. Siemens Med. Sys., Inc.,
106 F.R.D. 551 (S.D.N.Y. 1985) ............................... 6
Hawkins v. City of Cave Springs,
No. 5:17-CV-5048, 2019 U.S. Dist. LEXIS
7491 (W.D. Ark. Jan. 8, 2019) ............................... 21
Heraeus Kulzer, GmbH v. Biomet, Inc.,
881 F.3d 550 (7th Cir. 2018) ............................ 16, 28
Horne v. Flores,
557 U.S. 433 (2009) ................................................ 26
Infineon Techs. AG v. Green Power Techs. Ltd.,
247 F.R.D. 1 (D.D.C. 2005) .................................... 22
Inventio AG v. Thyssenkrupp Elevator Ams.
Corp.,
No. 1:08-cv-00874-RGA, 2013 U.S. Dist.
LEXIS 120452 (D. Del. Jan. 22, 2013) .................. 22
Jacobson v. Metro. St. Louis Sewer Dist.,
No. 4:14-cv-01333-AGF, 2018 U.S. Dist.
LEXIS 11297 (E.D. Mo. Jan. 24, 2018) ................. 21
Jepson, Inc. v. Makita Elec. Works, Ltd.,
30 F.3d 854 (7th Cir. 1994) .................................... 31
Jochims v. Isuzu Motors,
145 F.R.D. 499 (S.D. Iowa 1992) ........................... 28
Kiobel v. Cravath, Swaine & Moore LLP,
895 F.3d 238 (2d Cir. 2018) ................................... 16
Martindell v. Int’l Tel. & Tel. Corp.,
594 F.2d 291 (2d Cir. 1979) ................................... 16
In re Marriott Int’l Customer Data Sec. Breach
Litig.,
363 F. Supp. 3d 1372 (J.P.M.L. 2019) ................... 24

xi
In re Marriott Int’l Customer Data Sec. Breach
Litig.,
MDL 19-md-2879, 2020 U.S. Dist. LEXIS
235764 (D. Md. Dec. 2, 2020) ........................... 20, 24
Modern Font Applications v. Alaska Airlines,
No. 2:19-cv-00561, 2021 U.S. Dist. LEXIS
21563 (D. Utah Feb. 3, 2021) ................................. 20
Münchener Rückversicherungs-Gesellschaft
Aktiengesellschaft in München v. Northrop
Grumman Risk Mgmt.,
312 F.R.D. 686 (D.D.C. 2015) ................................ 21
Murata Mfg. Co. v. Bel Fuse, Inc.,
234 F.R.D. 175 (N.D. Ill. 2006) .............................. 22
N.J. Dep’t of Envtl. Prot. v. Atl. Richfield Co. (In
re Methyl Tertiary Butyl Ether “MTBE” Prods.
Liab. Litig.),
60 F. Supp. 3d 399 (S.D.N.Y. 2014) ....................... 17
Nielsen Co. (US), LLC v. Success Sys.,
112 F. Supp. 3d 83 (S.D.N.Y. 2015) ....................... 17
Oracle USA, Inc. v. Rimini St., Inc.,
No. 2:10-cv-00106-LRH-PAL, 2012 U.S. Dist.
LEXIS 174441 (D. Nev. Dec. 6, 2012) ................... 22
Pansy v. Borough of Stroudsburg,
23 F.3d 772 (3d Cir. 1994) ............................... 18, 31
Premier Dealer Servs. v. Allegiance Adm’rs,
LLC,
No. 2:18-cv-735, 2021 U.S. Dist. LEXIS 14978
(S.D. Ohio Jan. 27, 2021) ....................................... 20
Procter & Gamble Co. v. Bankers Tr. Co.,
78 F.3d 219 (6th Cir. 1996) .................................... 31

xii
Rio Tinto PLC v. Vale S.A.,
2016 U.S. Dist. LEXIS 30524
(S.D.N.Y. Mar. 9, 2016) .......................................... 21
Romary Assocs. v. Kibbi, LLC,
No. 1:10-cv-376, 2012 U.S. Dist. LEXIS 1757
(N.D. Ind. Jan. 6, 2012).......................................... 22
Rotex Global, LLC v. Gerard Daniel Worldwide,
Inc.,
No. 1:17-CV-2118, 2019 U.S. Dist. LEXIS
177017 (M.D. Pa. Oct. 11, 2019) ............................ 21
Royal v. Boykin,
No. 1:16-CV-176-GHD-RP, 2018 U.S. Dist.
LEXIS 211089 (N.D. Miss. Dec. 14, 2018) ............ 21
Santiago v. Honeywell Int’l, Inc.,
No. 16-Civ-25359-COOKE/TORRES, 2017
U.S. Dist. LEXIS 184483
(S.D. Fla. Apr. 6, 2017) .......................................... 21
Scanlan v. Town of Greenwich,
No. 3:18CV01322(KAD), 2021 U.S. Dist.
LEXIS 70126 (D. Conn. Apr. 12, 2021) ................. 20
Schaffer v. Weast,
546 U.S. 49 (2005) .................................................. 26
Seattle Times Co. v. Rhinehart,
467 U.S. 20 (1984) .................................................. 19
SEC v. TheStreet.com,
273 F.3d 222 (2d Cir. 2001) ....................... 16, 28, 30
Smithkline Beecham Corp. v. Synthon Pharm.,
Ltd.,
210 F.R.D. 163 (M.D.N.C. 2002) ............................ 18
In re Southeastern Milk Antitrust Litig.,
666 F. Supp. 2d 908 (E.D. Tenn. 2009) ................. 22

xiii
Tama Plastic Indus. v. Pritchett Twine & Net
Wrap, LLC,
No. 8:12CV324, 2014 U.S. Dist. LEXIS 136196
(D. Neb. Sept. 26, 2014) ......................................... 22
U.S. Bancorp Mortg. Co. v. Bonner Mall P’ship,
513 U.S. 18 (1994) .................................................. 26
United States v. (Under Seal),
794 F.2d 920 (4th Cir. 1986) .................................. 18
United States v. Aetna Inc.,
No. 1:16-cv-1494, 2016 U.S. Dist. LEXIS
189139 (D.D.C. Sep. 22, 2016) ............................... 21
United States CFTC v. U.S. Bank, N.A.,
No. C13-2041, 2015 U.S. Dist. LEXIS 12509
(N.D. Iowa Feb. 2, 2015) ........................................ 22
United States ex rel. Fisher v. Ocwen Loan
Servicing, LLC,
No. 4:12-CV-543, 2016 U.S. Dist. LEXIS 7475
(E.D. Tex. Jan. 22, 2016)........................................ 21
Statutes
28 U.S.C. § 1254(1) ...................................................... 1
Rules
Fed. R. Civ. P. 16 ....................................................... 27
Fed. R. Civ. P. 16(b)(4)............................................... 27
Fed. R. Civ. P. 26 ............................................... passim
Fed. R. Civ. P. 26(c) ........................................... passim
Fed. R. Civ. P. 26(c)(1) ............................................... 20

xiv
Other Authorities
Kenneth S. Broun et al., McCormick on
Evidence (8th ed. 2020) .......................................... 27
Civ. R. Advisory Committee, Meeting Mins.
(Apr. 20, 1995) ........................................................ 25
Civ. R. Advisory Committee, Meeting Mins.
(Mar. 16-17, 1998) .................................................. 25
Seth Katsuya Endo, Contracting for
Confidential Discovery,
53 U.C. Davis L. Rev. 1249 (2020)..................... 5, 20
Arthur Miller, Confidentiality, Orders, and
Public Access to the Courts,
105 Harv. L. Rev. 427 (1991) ..................... 19, 20, 23
Christopher Mueller & Laird Kirkpatrick,
Evidence (4th ed. 2020) .......................................... 26
Richard J. Vangelisti, Proposed
Amendment to Federal Rule of Civil
Procedure 26(c) Concerning Protective
Orders: A Critical Analysis of What It
Means and How It Operates,
48 Baylor L. Rev. 163 (1996)................ 19, 20, 23, 26

1
PETITION FOR A WRIT OF CERTIORARI
Petitioners John Doe 7, Jane Doe 7, Juana Doe 11,
Minor Doe 11A, the Seven Surviving Children of Jose
Lopez 339, and Juana Perez 43A respectfully petition
for a writ of certiorari to review the judgment of the
United States Court of Appeals for the Eleventh
Circuit.
OPINIONS BELOW
The opinion of the Eleventh Circuit (Pet. App. 1a24a) is reported at 965 F.3d 1238. The order of the
district court (Pet. App. 25a-35a) modifying the
protective order is not reported but available at 2019
U.S. Dist. LEXIS 62415.
JURISDICTION
The court of appeals issued its judgment on July
16, 2020, and denied a timely petition for rehearing on
December 14, 2020. This petition is timely filed within
150 days of December 14. This Court has jurisdiction
under 28 U.S.C. § 1254(1).
RELEVANT STATUTORY PROVISIONS
Federal Rule of Civil Procedure 26(c) provides:
A party or any person from whom discovery is
sought may move for a protective order in the
court where the action is pending . . . . The
motion must include a certification that the
movant has in good faith conferred or
attempted to confer with other affected
parties in an effort to resolve the dispute
without court action. The court may, for good
cause, issue an order to protect a party or
person from annoyance, embarrassment,
oppression, or undue burden or expense[.]

2
INTRODUCTION
This Court should resolve a three-way circuit split
over the standard for modifying a stipulated protective
order. Stipulation to protective orders for discovery is
extremely common in cases of even modest complexity,
and the rules for modification bear directly on the
degree to which parties will be able to rely on such
orders to actually protect sensitive information – and
whether they will be willing to stipulate at all. In some
cases, a lack of confidence in the durability of
protective orders may even lead plaintiffs with
legitimate and important claims to forgo their
vindication through litigation, or defendants to settle
meritless claims rather than risk the disclosure of
sensitive information.
The Eleventh Circuit’s decision below, which held
that a party who stipulates to a protective order can
nonetheless later challenge that order – without
bearing any burden to show a change in circumstances
or other good cause, and regardless of whether the
opposing party has relied on the order – deepened a
three-way circuit conflict. While the Ninth Circuit has
agreed with the Eleventh Circuit’s approach, the
Second and Seventh Circuits take the opposite
position that the party seeking modification of a
stipulated order bears the burden, and a heightened
one at that. The Third Circuit, meanwhile, has charted
a middle path; it rejected the Second and Seventh
Circuits’ standard as too stringent, but still puts the
burden on the movant to identify why a modification
is necessary and requires the district court to take
reliance interests into account.
These multifarious rules create significant
uncertainty among litigants and their counsel,

3
including in the circuits that have yet to announce a
rule. A corporation that hands over trade secrets in
discovery, relying on a protective order in which its
adversary agreed to keep such information
confidential, reasonably expects that removing such
protection will not be easy – at a minimum, that the
proponent of disclosure will then bear the burden of
showing why modification is justified. But the current
state of the law affords no such assurance. This split
further threatens to wreak havoc in multi-district
cases such as this one, involving suits filed in five
different circuits. The outcome of the question here
should not depend on where these cases happen to
have been centralized.
In the case at bar, what is at stake is not
confidential business information, but the Petitioners’
very lives. Their lawsuit challenges the killings of
their relatives by paramilitary death squads in
Colombia. The district court previously recognized
that “Colombia remains an extraordinarily dangerous
place to conduct litigation involving human rights
abuses.” Order Den. Defs.’ Joint Mot. to Dismiss 7 (DE
1194).1 For this reason, the parties and the Court had
agreed that the plaintiffs’ names, addresses, phone
numbers, medical, and other private information
would be kept confidential. Pet. App. 36a-39a. Yet on
the eve of summary judgment, after the plaintiffs had
disclosed all of this information in discovery, the
defendants (including Respondent) sought to revoke
these protections, Defs.’ Expedited Mot. to Modify
Unless otherwise noted, citations to “DE” refer to the
multi-district litigation docket in the district court below, In re:
Chiquita Brands Int’l, Inc. Alien Tort Statute and Shareholder
Derivative Litig., No. 08-01916-MD-MARRA (S.D. Fla.).
1

4
Protective Order (DE 2253); the district court granted
their motion. Pet. App. 1a-24a. It did not do so because
the order was impeding Respondent’s ability to
present its defense – Respondent knew Petitioners’
true identities, their addresses, and other personal
information; it was just prohibited from disclosing that
information to the public. Pls.’ Opp. to Defs.’
“Expedited” Mot. to Preclude Continued Use of
Pseudonym 16-17 (DE 2277). Instead, the district
court ruled that Petitioners bore the burden of
justifying continued protection, applying the same
standard that would have applied if the order had been
contested at the outset and disregarding the reliance
interests that had accrued over the two years in which
the stipulated order had been in place. Pet. App. 20a23a. In affirming, the Eleventh Circuit not only
deepened a circuit conflict, but put the lives of
Petitioners and thousands of similarly situated
plaintiffs in these consolidated cases at risk.
STATEMENT OF THE CASE
1. Liberal discovery serves a crucial function in
the adversarial model of civil litigation, which requires
parties to exchange information about their claims.
Thus, many of the Federal Rules of Civil Procedure are
designed to encourage the free flow of all relevant
information between parties.
But parties sometimes risk financial, emotional,
reputational, or even physical harm from sharing
information – whether that harm is from a source code
being distributed to competitors, a list of patients who
visited a medical clinic being exposed to the public, or
an informant’s name being leaked to violent criminals.
Recognizing this risk, Federal Rule of Civil Procedure
26(c) permits courts, for good cause shown, to “issue

5
an order to protect a party or person from annoyance,
embarrassment, oppression, or undue burden or
expense[.]”
Protective orders are ubiquitous in all types of
litigation, from trade secrets cases to employment
disputes and personal injury claims. Indeed, without
protective orders, plaintiffs in particularly sensitive
cases might choose not to pursue their claims at all.
For instance, a litigant in a corporate espionage case
may prefer to tolerate a limited theft of a trade secret
rather than risk public disclosure for the world to see.
Likewise, a sexual harassment victim may prefer to
allow her abuser to go unpunished over having her
name plastered across the front pages. And discovery
disputes in all manner of litigation would slow
significantly as parties contest producing every piece
of information that opposing counsel could
disseminate widely.
Equally necessary is parties’ ability to stipulate to
part or all of a protective order. The court then
typically “determine[s] if there is good cause to issue
the order,” and may enter the parties’ order or modify
it as it sees fit. Seth Katsuya Endo, Contracting for
Confidential Discovery, 53 U.C. Davis L. Rev. 1249,
1259-60 (2020). These stipulated protective orders
reduce the burden on the courts, encouraging the
speedy and efficient resolution of discovery disputes.
And parties rely on these stipulated protective orders
to pursue litigation and defenses, share information,
and resolve cases efficiently.
While Rule 26(c) provides guidance for the entry
of protective orders, the rules do not specifically
authorize modification or removal of such orders. With
no instruction, courts look to judge-made doctrine to

6
guide their discretion in modifying these orders. Those
doctrines have taken into account a variety of
considerations, such as the public right of access to the
courts, the fundamental rights to freedom of speech
and privacy, and the policies underlying the Federal
Rules of Civil Procedure, including facilitating
disclosures, efficiency in litigation, and reaching just
results.
The resulting law has been anything but
consistent or uniform. See, e.g., H.L. Hayden Co. v.
Siemens Med. Sys., Inc., 106 F.R.D. 551, 552 (S.D.N.Y.
1985) (decrying the “chaos” in this area of law). That
inconsistency and unpredictability has endured for
decades now, with no end in sight.
2. While protective orders are filed, and their
modification sought, for important reasons in a wide
variety of cases, the stakes in this case are particularly
high.
Petitioners are the family members of victims of
paramilitary death squads operating in the bananagrowing regions of Colombia. Pls.’ Opp. to Defs.’ Mot.
for Summ. J. 1 (DE 2345). They have sued Respondent
Chiquita Brands International, Inc., a U.S. banana
company, that pled guilty in 2007 to the federal crime
of illegally financing those terrorist organizations. Id.
at 16; Gov. Sentencing Mem. (DE 2346-2).
From at least 1997 through 2004, Respondent
paid the Autodefensas Unidas de Colombia (AUC) over
$1.7 million to provide “security” for its Colombian
banana plantations. Factual Proffer 5 (DE 2346-1);
Pls.’ Opp. to Defs.’ Mot. for Summ. J. 5 (DE 2345). In
return, the AUC suppressed labor unions and other
threats to business operations as part of a larger reign
of terror that resulted in thousands of gruesome

7
murders, rapes, and other violent crimes. Pls.’ Opp. to
Defs.’ Mot. for Summ. J. 6-8, 38-46 (DE 2345). The
Government emphasized at Respondent’s September
17, 2007, sentencing hearing:
What makes this conduct so morally
repugnant is that the company went
forward month after month, year after
year, to pay the same terrorists. It did so
knowing full well that while its farms may
have been protected, and while its workers
may have been protected while they
literally were on those farms, Chiquita
was paying money to buy the bullets that
killed innocent Colombians off of those
farms.
Tr. of Sentencing 29, United States v. Chiquita Brands
Int’l, Inc., No. 07-55 (Sept. 17, 2007, D.D.C.).
3. Thousands of family members whose loved ones
were murdered by the AUC with Chiquita’s support
filed actions in federal court in New York, New Jersey,
the District of Columbia, and Florida. Pet. App. 26a27a. Plaintiffs alleged that Chiquita and its highranking executives aided and abetted the AUC’s reign
of terror. In February 2008, the Judicial Panel on
Multidistrict Litigation coordinated these complaints
for pretrial purposes in the Southern District of
Florida. Compl. (DE 1). Additional complaints,
including several filed in Ohio, were added to the
multidistrict litigation (MDL) over the years.2
2 E.g., Compl., Does 1-976 v. Chiquita Brands Int’l, Inc., No.
1:10-cv-00404 (D.D.C. Mar. 9, 2010); Compl., Montes v. Chiquita
Brands Int’l, Inc., No. 0:10-cv-60573 (S.D. Fla. Apr. 14, 2010);

8
4. At the time of filing, Colombia was still beset by
paramilitary violence, and it continues today –
including by the successors of the very groups
Chiquita funded. See Decl. of Adam Isacson, John Doe
1 et al. v. Chiquita Brands Int’l, Inc., et al., Case No.
2:07-cv-03406- JMV-JBC (D.N.J. July 17, 2007) (DE 11) (describing danger to Plaintiffs in 2007 and
submitting 2006 State Department Human Rights
Report on Colombia); Mem. Opp. Mot. to Dismiss 5
(DE 109) (arguing that rural Colombia “until recently,
was an active conflict zone, in which [Plaintiffs] would
have faced (and, indeed, may still face) reprisals” for
filing). Given the ongoing risk, the majority of
plaintiffs sought to proceed under pseudonym, which
was permitted by the filing courts.3 At various stages,
the plaintiffs submitted substantial evidence of these
risks,
including
expert
witness
statements,
documentation from the United Nations and from
human rights organizations, and statistics on deaths
of human rights defenders in Colombia. See Decl. of
Adam Isacson, John Doe 1 et al. v. Chiquita Brands
Int’l, Inc., et al., Case No. 2:07-cv-03406- JMV-JBC
(D.N.J. July 17, 2007) (DE 1-1 and 1-2) (submitting
reports from expert, State Department Organization
of American States, Human Rights Watch, Amnesty
International, and newspaper reports); Pls.’ Opp. to
Defs.’ Mot. to Dismiss 6-11 (DE 832) (submitting
Compl., Does 1-677 v. Chiquita Brands Int’l, Inc., No. 9:11-cv80404 (S.D. Fla. Mar. 22, 2011); Compl., Does 1-254 v. Chiquita
Brands Int’l, Inc., No. 9:11-cv-80405 (S.D. Fla. Mar. 22, 2011).
E.g. DE 2, John Doe 1, et al. v. Chiquita Brands Int’l, Inc.,
et al., Case No. 2:07-cv-03406- JMV-JBC. (D.N.J.); DE 2,
Jane/John Does 1-144 v. Chiquita Brands Int’l, Inc., et al., Case
No. 1:07-cv01048-PLF (D.D.C.).
3

9
reports from three experts, the Inter-American
Commission on Human Rights, the State Department,
non-governmental organizations, and newspapers);
Pls.’ Opp. to Defs.’ “Expedited” Mot. to Preclude
Continued Use of Pseudonym 4-6, 9-11 (DE 2277)
(submitting reports from experts, the United Nations,
Congress, the State Department, the Inter-American
Human Rights Commission, newspapers, nongovernmental organizations, and the Colombian
government).
In November 2016, the district court
acknowledged the perilous situation in Colombia. The
court denied Chiquita’s motion to dismiss on the basis
of forum non conveniens, finding that the country
“remains an extraordinarily dangerous place to
conduct litigation involving human rights abuses,”
Order Den. Defs.’ Joint Mot. to Dismiss 7 (DE 1194),
and that “Plaintiffs’ fears about retaliation from
current or former members of paramilitary groups . . .
are reasonably justified,” id. at 11.
5. Shortly thereafter, in April 2017, the district
court instructed the parties to submit proposed
protective orders before discovery was to begin. Global
Order Setting Tr. Dates and Discovery Deadlines 1
(DE 1361).
Against the backdrop of the Court’s forum non
conveniens order, both sides agreed that protections
for plaintiffs’ identities were warranted. The parties
submitted competing orders, overlapping in material
respects. Defs.’ Version of Joint Proposed Protective
Order (DE 1373); Pls.’ Notice of Proposed Protective
Order (DE 1374); Pet. App. 27a. The district court
adopted portions of both parties’ submissions,
precluding among other things disclosure of

10
petitioners’ names, addresses, phone numbers, email
and employers, and providing specific protections for
“the Pseudonymous Plaintiffs.” Pet. App. 36a-39a. The
order’s scope was limited to “pretrial discovery,”
leaving for later the rules for disclosing such
information at trial. Pet. App. 43a. But the order was
not time-limited: unless protected information was
allowed to be disclosed at trial, the protective order
forbade disclosure of Petitioners’ identity information
indefinitely. Pet. App. 42a-43a.
6. For Petitioners, who were among a handful of
“bellwether” plaintiffs, discovery proceeded under this
protective order throughout 2017 and 2018. In reliance
on the protective order, all plaintiffs disclosed their
true identities and other private information to the
defendants; no relevant information was withheld.
Throughout this period, Respondent raised no
concerns that the protective order was impairing its
ability to defend itself. Where necessary, the parties
submitted confidential information – both the
plaintiffs’ identities and defendants’ confidential
documents – under seal, without incident. E.g., DE
2187; DE 2118; DE 2112; DE 2022; Pet. App. 27a.
7. In early 2019, following the close of discovery
and immediately prior to summary judgment motions,
defendants (including Respondent) moved to lift all
protections for Petitioners’ identities and private
information, including their addresses and telephone
numbers. Defs.’ Expedited Mot. to Modify Protective
Order 3 (DE 2253). They asked that their motion be
considered on an expedited basis, asking the court to
rule within eight days. Id. at 4.
The defendants did not claim that they had been
denied any relevant discovery or argue that continuing

11
the order would prejudice their defense. Instead, they
said they wanted to “publicly name their accusers” in
order to “vindicate themselves in the eyes of the
public.” Defs.’ Reply in Supp. of Expedited Mot. to
Modify Protective Order 10 (DE 2292); Defs.’
Expedited Mot. to Modify Protective Order 13 (DE
2253). They did not identify any change in their own
circumstances justifying their abandonment of their
stipulation, but cited a single document to suggest
that conditions had changed in Colombia. Defs.’
Expedited Mot. to Modify Protective Order 18 (DE
2253). Their only other justification was that the need
for redaction was purportedly imposing a “severe”
“administrative burden on the Court.” Id. at 2, 11-12;
Defs.’ Reply in Supp. Of Expedited Mot. to Modify
Protective Order 9 (DE 2292).
Alarmed by Respondent’s plans to publicly
disclose their private information, Petitioners
provided voluminous evidence that the situation in
Colombia had not changed since the forum non
conveniens order in 2016 or the protective order in
2017, and that participants in human rights litigation
– among other people considered “human rights
defenders” – were targeted for violence. Pls.’ Opp. to
Defs.’ “Expedited” Mot. to Preclude Continued Use of
Pseudonym 3-6, 10-12 (DE 2277). In particular,
Colombia led the world in killings of human rights
defenders in 2017, Id. Ex. E (DE 2277-5); in May 2018,
73 members of the U.S. Congress noted that “a
Colombian social leader is murdered every two and a
half days.” Id. Ex. D (DE 2277-4).
On April 10, 2019, the district court issued an
order largely granting the defendants’ motion. Pet.
App. 25a-35a. The court did not find that the

12
defendants had met any burden to modify the
protective order; it did not validate defendants’
arguments as to changed conditions, administrative
burdens, or their claimed need to defend themselves
publicly. Instead, the court found that Petitioners had
failed to show sufficient cause “to continue
anonymously,” placing the burden on Petitioners to
justify the continuation of an existing court order. Pet.
App. 32a-34a. The court then lifted all restrictions on
Respondent’s public disclosure of Petitioners’
identities and use of “private facts,” including their
addresses and telephone numbers. Pet. App. 34a-35a.
The district court subsequently denied a stay of its
order, in which it again emphasized that in opposing
modification, it was “incumbent upon the designated
Plaintiffs . . . to meet their burden of proof on
entitlement to anonymity.” Order Den. Mot. to Stay
Pending Appeal 4 (DE 2451).
The Eleventh Circuit granted a stay pending
appeal, which prevented disclosure of petitioners’
identities and private information for the time being.
Order of USCA 4 (DE 2506).4
8. The Eleventh Circuit ultimately affirmed. Pet.
App. 1a-24a. The court of appeals’ decision rests in
large part on its analysis of the burden. It accepted the
district court’s characterization of the order as based
on a stipulation of the parties. Pet. App. 21a-22a. The
court then drew a distinction between the standards
for litigated and stipulated orders. The court
acknowledged that it was settled that “the party
moving to modify the protective order bears the
The stay will remain in effect pending this Court’s
disposition of this petition. Order of USCA 4 (DE 2506).
4

13
burden to establish good cause for the modification”
when the original order was disputed. Pet. App. 21a.
However, the court held that when “faced with a
motion to modify to a stipulated protective order,” “the
party seeking the stipulated order’s protection must
satisfy Rule 26(c)’s good cause standard.” Pet. App.
20a-21a.
In applying that standard, like the district court,
the Eleventh Circuit did not find that Respondent had
shown good cause for modifying the protective order,
or had substantiated any burdens or prejudice from
continuing the protection. Instead, it held that the
district court acted within its discretion in finding that
Petitioners did not meet their burden because they did
not provide compelling evidence that the risk from
disclosing their identities outweighed the presumption
of openness in judicial proceedings. Pet. App. 22a-24a.
It gave no weight to the existence of the protective
order or Petitioners’ reliance on it. Id.5
The court of appeals denied Petitioners’ petition
for rehearing on December 14, 2020. Pet. App. 60a.
9. While the appeal was pending, the district court
granted summary judgment against Petitioners in
September 2019, dismissing their claims. Order on

The Eleventh Circuit considered Petitioners’ ability to
initially file their complaints using pseudonyms as a distinct
issue from the protective order. Petitioners do not challenge that
ruling here, because the protective order, which also protects the
use of pseudonyms and further restricts the defendants’
dissemination of identifying information, is the primary
safeguard at issue.
5

14
Mot. for Sum. J. (DE 2551). Petitioners’ appeal of the
dismissal is pending.6
10. While the order at issue only directly concerns
these Petitioners, it has far-reaching implications for
many others in the Chiquita MDL. Earlier this year,
Respondent sought to challenge anew hundreds of
plaintiffs’ ability to protect their identities. Mot. to
Reactivate Briefing on Pseudonyms (DE 2816). The
district court denied that motion only because this
appeal was still pending. Order Den. Mot. to
Reactivate Briefing 2 (DE 2819). These plaintiffs
await this Court’s decision on whether their identities
should be exposed to the paramilitaries who killed
their family members and continue to terrorize their
country.
REASONS FOR GRANTING THE WRIT
Protective orders are entered in nearly every
lawsuit of any complexity, usually based on
stipulation. Requests to modify these orders arise
frequently as well. But the courts of appeals are
divided over who bears the burden on a modification
motion and whether the protected parties’ reliance on
the stipulated protection matters. The result is an
untenable three-way circuit split that only this Court
can resolve. This case illustrates the stakes, with
petitioners’ very lives put at risk by the Eleventh

As the Eleventh Circuit held, the dismissal of the
Petitioners’ claims – even if upheld on appeal – does not render
this issue moot, because protection of their identities is distinct
from their substantive claims. Pet. App. 9a-13a. If this protection
is removed, Respondent would still be free to publicize
Petitioners’ identities even though their claims are no longer
pending. Id.
6

15
Circuits’ unduly lenient modification standard. The
Court should grant this petition and resolve the
conflict.
I.

The Decision Below Deepens A Three-Way
Circuit Split.

All courts, including the Eleventh Circuit, agree
that when a court has issued a protective order that
the parties disputed, rather than stipulated, the
moving party bears the burden of justifying
modification. See, e.g., FTC v. Abbvie Prods. LLC, 713
F.3d 54, 66 (11th Cir. 2013) (noting that “courts
regularly impose the burden on the party seeking
modification”). But the circuits are divided three ways
over the standard to apply to stipulated orders. The
Second and Seventh Circuits hold that the movant
bears not only the burden, but a heightened burden to
justify modification of a stipulated protective order.
The Eleventh and Ninth Circuits, in contrast, put the
burden on the protected party to justify retaining the
stipulated order, without regard to reliance interests.
The Third Circuit rejects the Second and Seventh
Circuits’ approach as too stringent, but still puts the
burden on the movant to come forward with a reason
for modification and for upsetting any reliance
interests of the original parties to the stipulation.
A. The Second And Seventh Circuits
Impose A Heightened Burden Of Proof
On Those Seeking Modification Of
Stipulated Protective Orders.
The Second and Seventh Circuits have held that
when a party agrees to a protective order, and then
seeks to modify it, the movant bears the burden of

16
showing more than the standard “good cause” to justify
modification.
Specifically, the Seventh Circuit has held that
“where a protective order is agreed to by the parties
before its presentation to the court, there is a higher
burden on the movant to justify the modification of the
order.” Am. Tel. & Tel. Co. v. Grady, 594 F.2d 594, 597
(7th Cir. 1978); see also Heraeus Kulzer, GmbH v.
Biomet, Inc., 881 F.3d 550, 566-67 (7th Cir. 2018)
(same). This is true, in a case like this, where the
movant “agreed to the protective orders at issue,”
Heraues Kulzer, 881 F.3d at 567, and when a nonparty to the case seeks the modification, Grady, 594
F.2d at 597.
The Second Circuit likewise holds that even when
a third party seeks modification of a stipulated
protective order, the movant must make a showing
that is “more substantial than the good cause needed
to obtain a sealing order in the first instance.” Geller
v. Branic Int’l Realty Corp., 212 F.3d 734, 738 (2d Cir.
2000) (citations and quotation marks omitted).
“[A]bsent a showing of improvidence in the grant of a
Rule 26(c) protective order or some extraordinary
circumstance or compelling need . . . a witness should
be entitled to rely upon the enforceability of a
protective order . . . .” Id. (quoting Martindell v. Int’l
Tel. & Tel. Corp., 594 F.2d 291, 296 (2d Cir. 1979);
SEC v. TheStreet.com, 273 F.3d 222, 229 (2d Cir. 2001)
(same).
It follows, a fortiori, that the same stringent
standard applies when the movant is the party that
agreed to the stipulated order in the first place. See
Kiobel v. Cravath, Swaine & Moore LLP, 895 F.3d 238,
247 (2d Cir. 2018) (applying same standard where

17
party to stipulation sought to use discovery in related
litigation before foreign tribunal); see also, e.g., Nielsen
Co. (US), LLC v. Success Sys., 112 F. Supp. 3d 83, 12022 (S.D.N.Y. 2015) (requiring moving party to
overcome the “Martindell presumption” to modify a
protective order that it agreed to); N.J. Dep’t of Envtl.
Prot. v. Atl. Richfield Co. (In re Methyl Tertiary Butyl
Ether “MTBE” Prods. Liab. Litig.), 60 F. Supp. 3d 399,
403-04 (S.D.N.Y. 2014) (same); Bayer AG v. Barr
Labs., 162 F.R.D. 456, 466 (S.D.N.Y. 1995) (same).
B. The Ninth And Eleventh Circuits Put
The Burden On The Non-Movant.
The Eleventh Circuit’s ruling below, in contrast,
places the burden on the non-movant to prove that
continued protection is necessary. Pet. App. 20a.
Moreover, the Eleventh Circuit applies the same
standard for modification as it does for the initial entry
of a protective order, giving no weight to the nonmovant’s reliance on the order and imposing no
obligation on the movant to explain why its prior
stipulation should no longer bind it. Pet. App. 20a-24a.
The Ninth Circuit has also rejected the Second
Circuit’s “extraordinary circumstances” test as
“incompatible with our circuit’s law.” Beckman Indus.
v. Int’l Ins. Co., 966 F.2d 470, 475 (9th Cir. 1992).
Instead, like the Eleventh Circuit, the Ninth has held
that “the party opposing disclosure has the burden of
establishing that there is good cause to continue the
protection of the discovery material.” Father M. v.

18
Various Tort Claimants (In re Roman Catholic
Archbishop), 661 F.3d 417, 424 (9th Cir. 2011).7
C. The
Third
Circuit
Intermediate Approach.

Takes

An

In Pansy v. Borough of Stroudsburg, 23 F.3d 772
(3d Cir. 1994), the Third Circuit acknowledged, but
rejected the Second Circuit’s standard as “too
stringent.” Id. at 790. It nonetheless agreed with the
Second Circuit that the “party seeking to modify the
order of confidentiality must come forward with a
reason to modify the order.” Id. In evaluating that
showing, however, the court must “use the same
balancing test that is used in determining whether to
grant such orders in the first instance, with one
difference: one of the factors the court should consider
in determining whether to modify the order is the
reliance by the original parties on the confidentiality
order.” Id.8
7

In Father M. a third party sought modification of a
stipulated order. But the court’s rationale did not turn on that
fact. Instead, the court believed that the burden was
appropriately placed on the party seeking protection because
“when the protective order was a stipulated order . . . no party
has made a ‘good cause’ showing.” 661 F.3d at 424 (internal
quotation marks omitted). The Eleventh Circuit applied the same
rule, for the same reason, to the party motion in this case. See
Pet. App. 20a.
8 The Fourth Circuit also appears to require a showing of
“good cause” to modify a stipulated protective order. See E.I.
DuPont De Nemours & Co. v. Kolon Indus. (In re Kolon Indus.),
479 Fed. Appx. 483, 485-86 (4th Cir. 2012) (citing United States
v. (Under Seal), 794 F.2d 920, 928 n.6 (4th Cir. 1986)); Factory
Mut. Ins. Co. v. Insteel Indus., 212 F.R.D. 301, 303-04 (M.D.N.C.
2002) (holding that a party who stipulated to a protective order

19
II. This Court Should Grant Certiorari To
Resolve The Circuit Conflict.
The question presented is of undeniable recurring
importance to litigants and the proper functioning of
our judicial system.
A. The Petition Presents A Frequently
Recurring And Important Issue In Civil
Litigation.
1. The proper standard for modifying stipulated
protective orders arises frequently in litigation.
Particularly with the increasing use of electronic
discovery, litigation risks public disclosure of private
information implicating rights and interests of the
highest order, from the addresses and phone numbers
of sexual assault victims and the intimate details of
individuals’ medical conditions to corporate trade
secrets and confidential financial information. See,
e.g., Seattle Times Co. v. Rhinehart, 467 U.S. 20, 34-36
(1984); Richard J. Vangelisti, Proposed Amendment to
Federal Rule of Civil Procedure 26(c) Concerning
Protective Orders: A Critical Analysis of What It Means
and How It Operates, 48 Baylor L. Rev. 163, 178
(1996); Arthur Miller, Confidentiality, Orders, and
Public Access to the Courts, 105 Harv. L. Rev. 427, 46469 (1991). Failing to protect such information can lead
to serious abuses. Rhinehart, 467 U.S. at 34-36.
Courts and the Federal Rules encourage parties to
address this problem by stipulating to protective
“has the burden of showing good cause to modify the order
because good cause was at least implicitly acknowledged when
the order was initiated”); Smithkline Beecham Corp. v. Synthon
Pharm., Ltd., 210 F.R.D. 163, 168 (M.D.N.C. 2002) (same).

20
orders whenever possible. See Fed. R. Civ. P. 26(c)(1)
(precluding parties from requesting protective order
from the court until they have “in good faith conferred
or attempted to confer with other affected parties in
an effort to resolve the dispute without court action”).
As a result, the majority of protective orders are
stipulated to, at least in part.9
Given the frequency with which protective orders
are issued, it is not surprising that requests to modify
protective orders, including stipulated orders, “are
relatively common,” too. Miller, supra, at 499-500 &
n.346. And as the depth of the circuit conflict suggests,
the question of which party bears the burden on
modification is frequently litigated in the courts of
appeals and, even more frequently, in the district
courts. See, e.g., Alfandary v. Nikko Asset Mgmt., 2021
U.S. Dist. LEXIS 77701, at *6-7, 8-10 (S.D.N.Y. Apr.
22, 2021); Scanlan v. Town of Greenwich, No.
3:18CV01322(KAD), 2021 U.S. Dist. LEXIS 70126, at
*8 (D. Conn. Apr. 12, 2021); Choi v. 8th Bridge Capital,
Inc., No. 2:17-cv-08958-CAS-AFMx, 2021 U.S. Dist.
LEXIS 63540, at *6 (C.D. Cal. Mar. 30, 2021); Modern
Font Applications v. Alaska Airlines, No. 2:19-cv00561, 2021 U.S. Dist. LEXIS 21563, at *13-18 (D.
Utah Feb. 3, 2021); Premier Dealer Servs. v. Allegiance
Adm’rs, LLC, No. 2:18-cv-735, 2021 U.S. Dist. LEXIS
14978, at *4-5 (S.D. Ohio Jan. 27, 2021); In re Marriott
Int’l Customer Data Sec. Breach Litig., MDL 19-mdSee Vangelisti, supra, at 164-65 (noting “courts routinely
enter protective orders when parties agree that an order is
necessary”); Endo, supra, at 1258-59; Brigham Young Univ. v.
Pfizer, Inc., 281 F.R.D. 507, 510 (D. Utah 2012) (“stipulated
protective orders have become standard practice in complex
cases”).
9

21
2879, 2020 U.S. Dist. LEXIS 235764, at *62-64 (D. Md.
Dec. 2, 2020); Allscripts Healthcare, LLC v.
DR/Decision Res., LLC, 440 F. Supp. 3d 71, 78 (D.
Mass. 2020); FurnitureDealer.net, Inc. v. Amazon.com,
Inc., No. 18-cv-0232, 2019 U.S. Dist. LEXIS 234307, at
*4-5 (D. Minn. Nov. 7, 2019); Rotex Global, LLC v.
Gerard Daniel Worldwide, Inc., No. 1:17-CV-2118,
2019 U.S. Dist. LEXIS 177017, at *15-16, 18 (M.D. Pa.
Oct. 11, 2019); Hawkins v. City of Cave Springs, No.
5:17-CV-5048, 2019 U.S. Dist. LEXIS 7491, *3 (W.D.
Ark. Jan. 8, 2019); Jacobson v. Metro. St. Louis Sewer
Dist., No. 4:14-cv-01333-AGF, 2018 U.S. Dist. LEXIS
11297, at *3-4 (E.D. Mo. Jan. 24, 2018); Royal v.
Boykin, No. 1:16-CV-176-GHD-RP, 2018 U.S. Dist.
LEXIS 211089, at *4-8 (N.D. Miss. Dec. 14, 2018); Doe
v. Anderson, No. 15-cv-13852, 2017 U.S. Dist. LEXIS
152770, at *10-15 (E.D. Mich. Sep. 20, 2017); Diamond
Consortium, Inc. v. Manookian, No. 4:16-CV-00094,
2017 U.S. Dist. LEXIS 82692, at *4-5 (E.D. Tex. May
31, 2017); Santiago v. Honeywell Int’l, Inc., No. 16-Civ25359-COOKE/TORRES, 2017 U.S. Dist. LEXIS
184483, at *7-9 (S.D. Fla. Apr. 6, 2017); Bobrick
Washroom Equip., Inc. v. Scranton Prods., No. 3:14CV-00853, 2017 U.S. Dist. LEXIS 32894, at *2-13
(M.D. Pa. Mar. 8, 2017); United States v. Aetna Inc.,
No. 1:16-cv-1494, 2016 U.S. Dist. LEXIS 189139, at *710 (D.D.C. Sep. 22, 2016); Birden v. City of Waterloo,
No. 15-CV-2062-LRR, 2016 U.S. Dist. LEXIS 73868, at
*3-5 (N.D. Iowa June 7, 2016); Blount v. Major, No.
4:15 CV 322 DDN, 2016 U.S. Dist. LEXIS 66545, at *34 (E.D. Mo. May 20, 2016); Rio Tinto PLC v. Vale S.A.,
2016 U.S. Dist. LEXIS 30524, at *6-9 (S.D.N.Y. Mar.
9, 2016); United States ex rel. Fisher v. Ocwen Loan
Servicing, LLC, No. 4:12-CV-543, 2016 U.S. Dist.
LEXIS 7475, at *5 (E.D. Tex. Jan. 22, 2016); Münchener

22
Rückversicherungs-Gesellschaft Aktiengesellschaft
in
München v. Northrop Grumman Risk Mgmt., 312
F.R.D. 686, 690-91 (D.D.C. 2015); United States CFTC
v. U.S. Bank, N.A., No. C13-2041, 2015 U.S. Dist.
LEXIS 12509, at *6-7 (N.D. Iowa Feb. 2, 2015);
Brightedge Techs., Inc. v. Searchmetrics, No. 14-cv01009-WHO, 2015 U.S. Dist. LEXIS 3994, at *5-7
(N.D. Cal. Jan. 13, 2015); Tama Plastic Indus. v.
Pritchett Twine & Net Wrap, LLC, No. 8:12CV324,
2014 U.S. Dist. LEXIS 136196, at *4-7 (D. Neb. Sept.
26, 2014); Inventio AG v. Thyssenkrupp Elevator Ams.
Corp., No. 1:08-cv-00874-RGA, 2013 U.S. Dist. LEXIS
120452, at *12-14 (D. Del. Jan. 22, 2013); Oracle USA,
Inc. v. Rimini St., Inc., No. 2:10-cv-00106-LRH-PAL,
2012 U.S. Dist. LEXIS 174441, at *30-31 (D. Nev. Dec.
6, 2012); Apeldyn Corp. v. AU Optronics Corp., No. 08568-SLR, 2012 U.S. Dist. LEXIS 85692, at *6-8 (D.
Del. June 13, 2012); Brigham Young Univ. v. Pfizer,
Inc., 281 F.R.D. 507, 510 (D. Utah 2012); Romary
Assocs. v. Kibbi, LLC, No. 1:10-cv-376, 2012 U.S. Dist.
LEXIS 1757, at *3-7 (N.D. Ind. Jan. 6, 2012); Braun
Corp. v. Vantage Mobility Int’l, LLC, 265 F.R.D. 330,
332-34 (N.D. Ind. 2009); In re Southeastern Milk
Antitrust Litig., 666 F. Supp. 2d 908, 914-15 (E.D.
Tenn. 2009); Murata Mfg. Co. v. Bel Fuse, Inc., 234
F.R.D. 175, 179 (N.D. Ill. 2006); Infineon Techs. AG v.
Green Power Techs. Ltd., 247 F.R.D. 1, 2 (D.D.C. 2005).
2. The question presented is frequently litigated
because, as discussed, the stakes in modification
disputes are high.
In addition to the harm that disclosure could
cause, the prospect of disclosure through the
modification of a protective order is equally damaging.
For example, plaintiffs like the Petitioners here – who

23
originally decided to proceed with this litigation with
the understanding that their identities and personal
information would be protected – may forgo
meritorious lawsuits out of fear that years after
disclosing sensitive information under a protective
order, they may find their identities revealed and their
lives put in danger. Similarly, a company like CocaCola, which relies heavily on trade secrets protections,
may forgo meritorious litigation if it cannot rely on
protective orders. See Miller, supra, at 469-70
(describing how Coca-Cola settled claims rather than
sharing its propriety formula).
The standard for modification is also important to
the proper functioning of the courts. If modification is
too easy, parties may resist discovery of sensitive
information they would be willing to turn over without
a fight, if they could be sure its privacy would be
maintained. See, e.g., Vangelisti, supra, at 178
(explaining that without confidence in protective
orders “parties would have to spend hundreds or
thousands of hours combing through millions of
documents to find relevant material because of the
potential for inadvertent production of private
information or trade secrets”). And if stipulated orders
are easier to modify than litigated decrees, parties
may refuse to stipulate in the first place, burdening
courts with crafting protective orders the parties could
have agreed to among themselves.
3. Finally, as this case shows, the placement of the
burden of proof often is outcome determinative.
Neither the district court nor the Eleventh Circuit
credited Respondent’s arguments regarding changed
circumstances in Colombia or any burdens or
prejudice. The only issue the courts below gave weight

24
to – the importance of public access to court records –
was present all along, no different from when
Respondent had originally stipulated to the protective
order. It was the courts’ conclusion that Petitioners
had failed to meet their burden, rather than the
strength of Respondent’s showing, that led to the
removal of protections here.
B. The Circuit Split Is Intolerable And
Requires Action By The Court.
The current situation, with at least three different
tests applied in different circuits, is untenable. The
disparate treatment of similarly situated parties,
based on nothing more than the location of their
lawsuit, is intolerable in a system intended to be
governed by a uniform set of civil procedure rules.
The diversity of rules is particularly undesirable
in the context of multidistrict litigation such as this.
The Chiquita MDL involves cases originally filed in
the Second, Third, Sixth, Eleventh, and D.C.
Circuits.10 In some of those courts, a protective order
carries greater weight than the opinion below afforded
it; the proponent of modifying an order would be
required to show good cause, and the parties’ reliance
on the order would be taken into consideration.
Other ongoing MDLs have also faced efforts by parties to
modify stipulated protective orders. For example, the In re
Marriott International Customer Data Security Breach Litigation
MDL includes cases from the First, Second, Fourth, Seventh, and
Ninth Circuits. See 363 F. Supp. 3d 1372 (J.P.M.L. 2019).
Marriott has recently sought to modify its stipulated protective
order; although there is no binding circuit authority, the District
of Maryland ruled that “the burden of establishing a modification
of a stipulated protective falls on the party who seeks it.” In re
Marriott Int’l, 2020 U.S. Dist. LEXIS 235764, at *62.
10

25
In a case where protection of information is
important – such as this one – differences among the
circuits might distort MDL practice. Concerned
parties will seek centralization in a court where their
agreements will be honored, or potentially resist
coordination entirely if they are uncertain about such
protections. Indeed, the result here would have been
different if the protective order had been challenged
after the various cases had been remanded to the
transferee courts. And such a situation could just as
easily be reversed – parties in an MDL in a jurisdiction
with a strong presumption against modification, such
as the Second Circuit, might obtain discovery
pursuant to a protective order in the MDL and then
later, after remand to a court in the Eleventh Circuit,
seek the unfettered ability to disseminate that
information – thus undermining the parties’
expectations. Such gamesmanship should be
foreclosed.
The circuit split is unlikely to be resolved without
action by this Court. As noted above, several of the
opinions at issue expressly acknowledged the split
while contributing to it; the courts of appeals will not
resolve this on their own. And while it might be
theoretically possible for an amendment to Rule 26 to
settle the issue, that too is unlikely – because it has
already failed. In 1995, the Advisory Committee on the
Civil Rules drafted an amendment to Rule 26(c) that
would have provided some guidance but was unable to
reach a consensus, leaving the issue to the courts.
See Civ. R. Advisory Committee, Meeting Mins. 23
(Mar. 16-17, 1998) (noting that the committee “voted
unanimously to terminate consideration of the 1995
Rule 26(c) proposal”); Civ. R. Advisory Committee,
Meeting Mins. 9-10 (Apr. 20, 1995) (discussing

26
proposed amendment); see also Vangelisti, supra, at
179-82 (describing substance of proposed amendment
and challenges in reaching consensus). There is no
indication that the Committee ever intends to revisit
the issue.
III. This Court Should Grant Certiorari Because
The Eleventh Circuit’s Decision Is Wrong,
And Puts Petitioners’ Lives At Risk.
Certiorari is further warranted because the
Eleventh Circuit’s ruling is wrong. Giving less weight
to stipulated protective orders, when the party seeking
modification has agreed to the stipulation, is contrary
to basic legal principles, creates perverse incentives,
and undermines the purpose of Rule 26.
A. The Burden Of Proof Ordinarily Falls On
The Party Seeking Relief.
Rule 26 was drafted against the background of
“[p]erhaps the broadest and most accepted idea” in the
law, which “is that the person who seeks court action
should justify the request.” Christopher Mueller &
Laird Kirkpatrick, Evidence § 3.3 (4th ed. 2020); see,
e.g., Horne v. Flores, 557 U.S. 433, 447 (2009) (holding,
in context of Rule 60(b) motion for relief from
judgment, the “party seeking relief bears the burden
of establishing that changed circumstances warrant
relief”); Schaffer v. Weast, 546 U.S. 49, 57-58 (2005)
(finding that the burden of persuasion generally falls
on the “party seeking relief” when establishing a claim
or affirmative defense); U.S. Bancorp Mortg. Co. v.
Bonner Mall P’ship, 513 U.S. 18, 26 (1994) (noting
burden falls on the petitioner “as the party seeking
relief from the status quo of the appellate judgment”);
Educ. Assistance Corp. v. Zellner, 827 F.2d 1222, 1226

27
(8th Cir. 1987) (holding burden normally falls on “the
party seeking to change the status quo” in civil
litigation); Kenneth S. Broun et al., McCormick on
Evidence § 337 (8th ed. 2020) (“The burdens of
pleading and proof with regard to most facts have been
and should be assigned to the plaintiff who generally
seeks to change the present state of affairs”).
For example, Rule 16 of the Federal Rules of Civil
Procedure provides that scheduling orders “may be
modified only for good cause and with the judge’s
consent.” Fed. R. Civ. P. 16(b)(4). It strains logic to
suggest that an order on which the parties have relied
to safeguard significant privacy and property interests
can be modified on a lesser showing than an order on
which they have relied to plan their vacations.11
B. Parties Who Stipulate To A Protective
Order Upon Which Others Have Relied
Should Be Held To Their Agreement
Unless They Can Show Good Cause For
Modification.
The Eleventh Circuit’s rule also disregards that
Respondent stipulated to the relevant language in the
first place. Stipulations in litigation are analogous to
contracts, and one of the bedrock principles of contract
law is that “[c]ontracting parties . . . are generally held
to the terms for which they bargained.” Authentic
Apparel Grp., LLC v. United States, 989 F.3d 1008,
1015 (Fed. Cir. 2021). A party who produces evidence
in reliance on the stipulation “is entitled to the benefit
of its bargain,” and a party who receives evidence as a
It is no answer that Rule 16 expressly puts the burden on
the movant, while Rule 26 is silent on the question – the text of
Rule 26 does not expressly permit modification at all.
11

28
benefit of the stipulation should be held to its promise.
Jochims v. Isuzu Motors, 145 F.R.D. 499, 501-02 (S.D.
Iowa 1992).
Of course, changed or unforeseen circumstances
may justify a departure from the original agreement.
But it should be the movants’ burden to show those
changed circumstances. See Heraeus Kulzer, 881 F.3d
at 568 (observing that a movant’s “failure to show . . .
changed
circumstances
also
weighs
against
modification”). This is particularly so because by
stipulating to a protective order, a party invites other
litigants to rely on the continued protection of the
order as they decide whether to comply with or dispute
discovery requests (or even whether to continue the
litigation). As the Second Circuit has explained, where
a party has “reasonably relied” on the protective order,
modification is “presumptively unfair.” TheStreet.com,
273 F.3d at 230.
Indeed, allowing parties to simply renege on their
stipulations creates opportunities for gamesmanship,
allowing parties to strategically stipulate to protective
orders early in cases and, after obtaining sensitive
information, move to strip confidentiality protections
from the protective order.
That risk and unfairness are aptly illustrated by
this case. Respondent agreed to keep private
information that Petitioners reasonably believed could
pose a risk to themselves or their families if publicly
disclosed. Defs.’ Version of Joint Proposed Protective
Order 3 (DE 1373). Their stipulation promised to keep
that information confidential indefinitely, leaving the
decision of whether and when to disclose that
information publicly to Petitioners’ discretion. Pet.
App. 43a. In reliance on that promise, Petitioners

29
provided Respondent that confidential information,
only to have Respondent turn around and, having
obtained the benefit of that discovery, claim that their
promise to keep the information confidential
indefinitely was improvident and unnecessary. Defs.’
Expedited Mot. to Modify Protective Order 1 (DE
2253).
In countenancing that behavior, the district court
did not find an unforeseen change in circumstances
that justified modifying the order or ask whether
Petitioners had relied on their information remaining
confidential in disclosing private information to
Respondent. Instead, the district court and the court
of appeals asked only whether a protective order
would issue if Petitioners had sought one over
Respondent’s objection today. Pet. App. 20a-21a, 32a34a.
If Petitioners had known that the protective order
provided very little enduring protection, they may well
have made different choices. Some Petitioners
probably would have proceeded, much like some of
their fellow plaintiffs who chose to publicly identify
themselves from the beginning – but plaintiffs facing
greater threats might have concluded that the benefits
of litigation were not worth the risk. In either case,
they would have had the opportunity to make that
decision, fully aware of its consequences.
C. The Eleventh Circuit’s Rule Will
Discourage Discovery In Reliance On
Protective Orders, And Stipulation To
Those Orders.
In addition to being unfair, the Eleventh Circuit’s
rule will undermine the efficient administration of
justice.

30
To start, the rule will predictably lead to avoidable
discovery disputes. If “protective orders were easily
modified,” the Second Circuit has explained, “parties
would be less forthcoming in giving testimony and less
willing to settle their disputes.” TheStreet.com, 273
F.3d at 230.
In this case, for example, if Petitioners knew they
could not rely on the protective order to keep their
names, addresses, and other contact information, they
would have fought discovery of every document
disclosing that information as irrelevant or otherwise
impermissible, lest Respondent be permitted a year or
two later to freely disseminate the information to
those who might intend to do Petitioners harm.
Second, if stipulated protective orders are given
less protection, the incentive to stipulate is
significantly undermined. Indeed, entering into a
stipulation would often be irresponsible for counsel,
especially since nothing in the law requires a party to
stipulate. In this case, for instance, if Petitioners
thought that agreeing to protective order provisions
would result in less protection, they would have
insisted on fully litigating the matter.
D. The Eleventh Circuits’ Reasons For Its
Counterproductive
Rule
Are
Unpersuasive.
The Eleventh Circuit justified its rule principally
on the assumption that stipulated orders are issued
(seemingly in violation of Rule 26) without any finding
of good cause. Pet. App. 19a; see also Father M., 661
F.3d at 424 (same). But that justification is
unconvincing.

31
To start, it makes no sense to assume that because
an order was stipulated, its good cause is suspect. In
this case, for example, the notion that there was no
good cause for protection is fanciful; a few months
before issuing the protective order, the district court
had observed that “Plaintiffs’ fears about retaliation
from current or former members of paramilitary
groups . . . are reasonably justified.” Order Denying
Defs.’ Joint Mot. to Dismiss 11 (DE 1194). Moreover,
the protective order specifically indicated that it was
issued “[p]ursuant to . . . Rule 26(c),” Pet. App. 36a,
implying that the rule’s requirements had been met.12
More generally, in treating every stipulated order
as having been issued without good cause, the
Eleventh Circuit’s rule arbitrarily denies durability to
orders a district court would have been compelled to
enter on good cause had the other party opposed the
order. And that would have the perverse effect of
giving the least protection in the cases where good

To the extent the Eleventh Circuit suggested that it is
proper for a district court to issue a stipulated protected order
without finding good cause, that holding conflicts with the law of
multiple other circuits. E.g., Jepson, Inc. v. Makita Elec. Works,
Ltd., 30 F.3d 854, 858 (7th Cir. 1994) (“In deciding whether to
issue a stipulated protective order, the district court must
independently determine if ‘good cause’ exists.”); see also Pansy,
23 F.3d at 785 (decrying the “disturbing[]” practice of some courts
of signing stipulated orders “without considering the propriety of
such orders”); Procter & Gamble Co. v. Bankers Tr. Co., 78 F.3d
219, 227 (6th Cir. 1996) (“Rule 26(c) allows the sealing of court
papers only ‘for good cause shown’ to the court”); see also id. at
229 n.1 (Brown, J., dissenting) (agreeing with the panel that
although “it is common practice for parties to stipulate to”
protective orders, “‘[g]ood cause’ must, however, still be shown for
the court to issue a stipulated order”).
12

32
cause was the most obvious – i.e., where no one was
willing to dispute its existence.
The rule also completely disregards the legitimate
reliance interests that accrue to an order once issued,
even if a court might later decide the good cause
question differently upon a party’s objections. It is one
thing to deny a stipulation for lack of good cause; it is
quite another to grant it, encourage a party to disclose
sensitive information in reliance on the order, and
then retroactively revoke the order’s protection.
If there are concerns about the standards district
courts employ in accepting Rule 26 stipulations, the
Eleventh Circuit (and other courts) should address
that problem directly by dictating the standards for
issuing stipulated orders.
E. The Application Of The Eleventh
Circuit’s Rule In This Case Puts The
Petitioners’ Lives At Risk.
This case provides a stark example of the
problems described above. Respondent agreed to keep
Petitioners’ names, addresses, and other personal
information confidential, proposing such provisions in
their proposed protective order, Defs.’ Version of Joint
Proposed Protective Order 3 (DE 1373), which the
district court adopted. Pet. App. 36a-39a. The reason
for this was clear: to protect the plaintiffs from the
very real threat of murder at the hands of
paramilitaries, including successors to the same
groups that Chiquita funded for years.
Relying on Respondent’s promises, Petitioners
turned over a wealth of personal information. They
proceeded all through discovery, making the journey
to the United States to sit for deposition. Only after it

33
had obtained all this information did Respondent seek
to modify the protective order.
The district court did not credit any of
Respondent’s reasons for seeking modification. It did
not find that the protective order worked any prejudice
against Respondent, or that it was especially
burdensome. Indeed, Respondent’s lead argument for
modification was that the conditions in Colombia had
changed since the protective order had been issued,
Defs.’ Expedited Mot. to Modify Protective Order 1718 (DE 2253), but the district court made no findings
to this effect. Instead, the district court simply found
that Petitioners had failed to meet their burden to
show that the protections the Court had ordered –
including ones Respondent themselves had agreed to
– were warranted. Pet. App. 31a-34a.
Respondent claimed the need to “publicly name
their accusers.” Defs.’ Reply in Supp. Of Expedited
Mot. to Modify Protective Order 10 (DE 2292). But this
“need,” even if credited, was surely foreseeable;
Respondent knew, when it agreed to these provisions,
that it was giving up the right to expose Petitioners’
identities. Chiquita, a sophisticated corporate actor,
knew what it was bargaining away when it stipulated
to that agreement. Rather than hold them to their
bargain, however, the district court and then the
Eleventh Circuit allowed defendants to challenge the
protective order even after accepting its benefits,
without showing good cause or any changed
circumstances.
This inequitable decision will harm the
Petitioners here, and it will harm all litigants who
hope to use protective orders to facilitate discovery. It
cannot be allowed to stand.

34
CONCLUSION
For the foregoing reasons, the petition for a writ
of certiorari should be granted.
Respectfully submitted,
Marco B. Simons
Lindsay A. Bailey
Richard L. Herz
Marissa A. Vahlsing
Kelsey M. Jost-Creegan
EARTHRIGHTS
INTERNATIONAL
1612 K St. NW
Suite 800
Washington, D.C. 20006

May 13, 2021

Kevin K. Russell
Counsel of Record
GOLDSTEIN & RUSSELL, P.C.
7475 Wisconsin Ave.
Suite 850
Bethesda, MD 20814
(202) 362-0636
kr@goldsteinrussell.com

APPENDIX

1a
APPENDIX A
________________________________
UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
___________________________
No. 19-11494
___________________________
D.C. Docket No. 0:08-md-01916-KAM; 0:08-cv-60821KAM
In Re: Chiquita Brands International, Inc. Alien Tort
Statute and Shareholder Derivative Litigation
___________________________
0:07-cv-60821-KAM
ANTONIO GONZALEZ CARRIZOSA,
JULIE ESTER DURANGO HIGITA,
LILIANA MARIA CARDONA,
MARIA PATRICIA RODRIGUEZ,
ANA FRANCISCA PALAC MORENO, et. Al.,
Plaintiffs-Appellants,
versus
CHIQUITA BRANDS INTERNATIONAL, INC., an
Ohio corporation,
CHIQUITA FRESH NORTH AMERICA LLC, a
Delaware corporation,
Defendants-Appellees,
RODERICK HILLS, et. Al.,
Defendants.
__________________________

2a
9:08-cv-80421-KAM
JOHN DOE I, individually and as representative of
his deceased father JOHN DOE 2,
JANE DOE 1, individually and as representative of
her deceased mother JANE DOE 2,
JOHN DOE 3, individually and as representative of
his deceased brother JOHN DOE 4,
JANE DOE 3, individually and as representative of
her deceased husband JOHN DOE 5,
MINOR DOES #1-4, by and through their guardian
JOHN DOE 6, individually and as representative of
their deceased mother JANE DOE 4,
JOHN DOE 7, individually and as representative of
his deceased son JOHN DOE 8,
JANE DOE 6,
JANE DOE 5,
JANE DOE 7, et. Al.,
Plaintiffs-Appellants,
versus
CHIQUITA BRANDS INTERNATIONAL, INC.,
Defendant-Appellee,
MOE CORPORATIONS 1-10, et. Al.,
Defendants.
__________________________
9:08-cv-80465-KAM
JANE/JOHN DOES (1-144), as Legal Heirs to Peter
Does 1-144, et. Al.,
Plaintiffs-Appellants,
versus

3a
CHIQUITA BRANDS INTERNATIONAL, INC.,
Defendant-Appellee,
DAVID DOES 1-10, et. Al.,
Defendants.
__________________________
9:08-cv-80508-KAM
JOSE LEONARDO LOPEZ VALENCIA, et. Al.
Plaintiffs-Appellants,
versus
CHIQUITA BRANDS INTERNATIONAL, INC., a
New Jersey corporation,
Defendant-Appellee,
MOE CORPORATIONS 1-10, et. Al.,
Defendants.
__________________________
9:17-cv-81285-KAM
DOES, 1-11,
Plaintiffs-Appellants,
versus
CARLA A. HILLS, Personal Representative of the
Estate of Roderick M. Hills,
Defendant.
_______________________
9:18-cv-80248-KAM

4a
JOHN DOE #1, et. Al., individually and as
representative of his deceased father JOHN DOE 2,
Plaintiffs-Appellants,
versus
CHIQUITA BRANDS INTERNATIONAL, INC. a
New Jersey corporation,
Defendant-Appellee,
MOE CORPORATIONS 1-10, et. Al.,
Defendants.
__________________________
Filed July 16, 2020
___________________________
ORDER AND JUDGMENT
___________________________
Before WILSON, MARCUS, and BUSH*, Circuit
Judges.
Per curiam:
___________________________
A lawsuit is a public event. Parties who ask a
court to resolve a dispute must typically walk in the
public eye. District courts, acting within their
discretion, can grant exception from this rule. But it is
rare for a district court to grant privacy protections for
a party. It is even rarer for a district court to abuse its

Honorable John K. Bush, United States Circuit Judge for the
Sixth Circuit, sitting by designation.
*

5a
discretion when denying privacy protections for a
party.
The appellants here claim that this is one of those
rarer cases. In this multidistrict litigation (MDL), they
contend that a Colombian paramilitary group killed
their family members. They also assert that appellee
Chiquita Brands International, Inc.—along with
affiliated entities and directors, but we will call them
all Chiquita for short—paid the paramilitary group
over $1.7 million to quell labor unrest and drive other
guerilla groups out of the banana-growing regions of
Colombia. This financial support, say the appellants,
contributed to the deaths of their family members.
Some appellants, fearing paramilitary retaliation,
filed their claims under pseudonyms. All appellants—
named and pseudonymous—obtained a protective
order prohibiting the disclosure of “private facts”—
facts that could reveal their identities or other
personal information (addresses, telephone numbers,
and so on).
After over a decade of litigation, Chiquita
challenged the privacy protections as difficult and
unnecessary. The district court agreed and revoked
the protections. The appellants appealed under the
collateral-order doctrine. Because the district court
acted within its discretion when it held that the
appellants failed to meet their necessary burdens, we
affirm.
I.
First, some background. Over a decade ago,
Chiquita admitted to financing paramilitaries in

6a
Colombia.1 The United States filed an information
against
Chiquita,
outlining
the
company’s
involvement. Chiquita ultimately entered a guilty plea
and paid a $25 million fine.
A bevy of related civil suits followed. The
appellants, then proceeding in separate cases,
generally claimed that Chiquita bankrolled a
paramilitary group called the Autodefensas Unidas de
Colombia (AUC). They also alleged that Chiquita’s
money helped the AUC murder their family members.
Fearing reprisal from the AUC or its affiliates, some
appellants sought to proceed anonymously (the
pseudonymous appellants). Others did not (the named
appellants).2 Alongside the named appellants,
hundreds of other plaintiffs chose to proceed under
their true names.
Of the pseudonymous appellants, some received
court approval to use pseudonyms. Others did so
without court approval. Eventually, their cases—
along with the cases of the named appellants and
other related plaintiffs—were merged into an MDL in
the Southern District of Florida.
In the MDL, Chiquita moved to dismiss the case
for forum non conveniens. It argued that Colombia was
the proper forum. In November 2016, the district court
denied the motion. Taking the plaintiffs’ allegations as
true and viewing the evidence in their favor, the court
noted that “participation in human rights litigation

See generally United States v. Chiquita Brands Int’l, 1:07–cr–
00055 (D.D.C.).
1

When referring to these groups collectively, we will call them
the appellants.
2

7a
involving paramilitary abuses in Colombia . . . is
currently a very dangerous proposition.”
The case then moved to discovery. During this
process, the district court recognized that the
pseudonymous
appellants
were
proceeding
anonymously. It did not, however, consider the
propriety of their pseudonyms.
Meanwhile, the parties grappled over what
protections to include in a proposed protective order.
Both sides generally agreed that the appellants
needed protection to combat the disclosure of their
“private facts”—facts that could publicly reveal their
identities or personal information. They volleyed draft
protective orders back and forth. When the dust
settled, the district court issued a protective order
under Federal Rule of Civil Procedure 26(c) that
largely entered all the requested private fact
protections. The order did not shield these facts from
Chiquita, though. Chiquita knows the pseudonymous
appellants’ identities and has received private fact
discovery.
These protections stood for about two years.
During this time, the parties picked the appellants to
serve as bellwether plaintiffs for dispositive motions
and bellwether trials.3 As the parties inched toward
summary judgment, though, the administrative cost of
anonymous litigation took its toll. Seeing no need for
the privacy protections, Chiquita moved to preclude
the pseudonymous appellants’ use of pseudonyms and
to modify the protective order to lift the appellants’
protections for private facts. In April 2019, the court
This meant that the appellants would serve
representatives for initial trials and dispositive motions.
3

as

8a
granted both requests in a joint order. It held that the
pseudonymous appellants failed to establish that their
risk of physical harm outweighed the general
presumption of judicial openness. The court thus
ordered the pseudonymous appellants to reveal their
identities. And for the same reasons, it lifted the
private fact protections for all appellants—named and
pseudonymous. The appellants then appealed the
court’s order under the collateral-order doctrine. We
stayed the court’s rulings pending our decision.
After the appellants filed their notice of appeal,
the district court entered summary judgment on the
merits against all the appellants save for one (Jane
Doe 46). The district court then certified the summary
judgment ruling as a final judgment under Federal
Rule of Civil Procedure 54(b). The appellants (Jane
Doe 46 excluded) also appealed that ruling. The
summary judgment appeal remains pending in a
separate proceeding.
II.
Before we reach the merits, we’ll first explain why
this appeal is not moot for the appellants who have
sustained summary judgment. Then we will analyze
both the district court’s denial of pseudonym
protection and its decision to modify its order
protecting private facts.
A.
A federal court cannot decide a “moot”
controversy. See Fla. Pub. Interest Research Grp.
Citizen Lobby, Inc. v. E.P.A., 386 F.3d 1070, 1086 (11th
Cir. 2004). We thus have an independent duty to
ensure that this case is not moot. See id. at 1083, 1086.
“A case is moot when the issues presented are no
longer ‘live’ or the parties lack a legally cognizable

9a
interest in the outcome.” Id. at 1086. This can happen
when events after the filing of the appeal “deprive the
court of the ability” to provide “meaningful relief.” Id.
We can provide meaningful relief here. If we were
to let the court’s order stand, the pseudonymous
appellants would have to reveal their identities and
the appellants would have no protection for their
private information. But if we were to vacate the
district court’s order, the pseudonymous appellants
would remain anonymous and the appellants’ private
facts would remain protected. Given the seriousness of
the subject matter, that is no doubt “meaningful
relief.” See id.
But there is a slight wrinkle: The district court
entered summary judgment against most of the
appellants and certified the ruling as a final judgment.
Those appellants are challenging the summary
judgment ruling in a different appeal. We have held,
at least in the preliminary injunction context, that
“[o]nce a final judgment is rendered, the appeal is
properly taken from the final judgment.” Burton v.
Georgia, 953 F.2d 1266, 1272 n.9 (11th Cir. 1992). If
that rule also applies to collateral orders, then we
could not grant meaningful relief here. The appellants
would instead need to raise their anonymity and
private fact issues in the summary judgment appeal.
But having reviewed Burton and its predecessors,
we feel confident that its rule does not apply to
collateral orders. Burton merely restated a
commonsense principle: A permanent injunction order
moots interlocutory review of a corresponding
preliminary injunction order because the preliminary
injunction order inherently “merge[s]” with the
permanent injunction order. See Sec. & Exch. Comm’n

10a
v. First Fin. Grp. of Tex., 645 F.2d 429, 433 (5th Cir.
Unit A May 1981)4; Birmingham Fire Fighters Ass’n
117 v. City of Birmingham, 603 F.3d 1248, 1254 (11th
Cir. 2010) (explaining that “when a final injunction
incorporates the same relief as an interlocutory
injunction, an appeal is properly taken only from the
final order” and the interlocutory appeal is moot).
This rule makes sense. The standard for entering
a preliminary injunction echoes the standard for
entering a permanent injunction. Compare Chavez v.
Fla. SP Warden, 742 F.3d 1267, 1271 (11th Cir. 2014)
(outlining the preliminary injunction standard), cert.
denied, 571 U.S. 1188 (2014), with Angel Flight of Ga.,
Inc. v. Angel Flight Am., Inc., 522 F.3d 1200, 1208
(11th Cir. 2008) (outlining the permanent injunction
standard). When a permanent injunction order and a
preliminary injunction order raise the same questions,
it makes little sense to have parallel panels deliver
disjointed answers. Rather, the preliminary order is
best viewed as merging with the final order, as both
orders speak to the merits of whether the requested
injunctive relief is appropriate. See Birmingham Fire
Fighters, 603 F.3d at 1254.
But that’s not true of collateral orders. Those
orders, per the Supreme Court, do “not make any step
toward final disposition of the merits” and “will not . .
. merge[] in a final judgment.” Cohen v. Beneficial
Indus. Loan Corp., 337 U.S. 541, 546 (1949). We dub
an order collateral only if it “(1) conclusively

In Bonner v. City of Prichard, we adopted as binding
precedent all decisions of the former Fifth Circuit handed down
before October 1, 1981. 661 F.2d 1206, 1209 (11th Cir. 1981) (en
banc).
4

11a
determines an important issue that is both (2)
completely separate from the merits of the case and (3)
effectively unreviewable on appeal from a final
judgment.” Parker v. Am. Traffic Solutions, Inc., 835
F.3d 1363, 1367 (11th Cir. 2016). Those traits differ
from that of a merged preliminary injunction—an
order that both speaks to the merits of whether
injunctive relief is appropriate and can be adequately
reviewed on appeal from the final injunctive order. See
Birmingham Fire Fighters, 603 F.3d at 1254.
Because the key aspects of a collateral order and
a preliminary injunction do not line up, we hold that
Burton’s rule does not apply to collateral orders. The
only question, then, is whether the rulings at issue
qualify as collateral orders.
The pseudonym ruling is easy. “A district court’s
order denying anonymity for a party is a final
appealable order under the collateral order doctrine.”
Plaintiff B v. Francis, 631 F.3d 1310, 1314 (11th Cir.
2011).
Next is the private fact ruling. Though we have
never considered whether a ruling that modifies a
protective order to revoke protections that conceal a
party’s identity and private information from allegedly
dangerous actors qualifies as a collateral order, we
conclude that it does. As said before, a collateral order
is one that “(1) conclusively determines an important
issue that is both (2) completely separate from the
merits of the case and (3) effectively unreviewable on
appeal from a final judgment.” Parker, 835 F.3d at
1367. The private fact ruling meets each criterion.
First up is the important-issue prong. An issue is
“important” enough to justify collateral review when it
involves a “particular value of a high order.” See

12a
Royalty Network, Inc. v. Harris, 756 F.3d 1351, 1356
(11th Cir. 2014). The issue must usually touch on a
“substantial public interest.” See id. at 1357. As the
Ninth Circuit has explained, “[f]ew tenets of the
United States justice system rank above the
conflicting principles presented” when a party seeks to
shield information in a judicial proceeding from public
view. See Doe v. Kamehameha Sch./Bernice Pauahi
Bishop Estate, 596 F.3d 1036, 1038 (9th Cir. 2010). In
these situations, courts must weigh “the transparency
and openness of this nation’s court proceedings”
against “the ability of private individuals to seek
redress in the courts without fear for their safety.” Id.
And as we explained in Doe v. Frank, there are
“exceptional cases” in which a plaintiff may face so
great a “danger of physical harm” that the plaintiff’s
interest in access to the judicial system outweighs the
public’s interest in judicial openness. 951 F.2d 320,
324 (11th Cir. 1992) (per curiam).
The district court’s order conclusively denied
protections intended to shield the appellants’ sensitive
information from paramilitaries. Given the serious
“danger of physical harm” alleged here, we conclude
that protecting the appellants’ access to the judicial
system is an important issue touching on substantial
public interests. See id.; Royalty Network, 756 F.3d at
1356–57.
We make quick work of the latter two prongs.
Whether the appellants should have these protections
is distinct from whether they should recover against
Chiquita. See Parker, 835 F.3d at 1367. And once the
public (or a paramilitary group) learns the appellants’
private facts, they cannot be concealed again. See S.
Methodist Univ. Ass’n of Women Law Students v.

13a
Wynne & Jaffe, 599 F.2d 707, 712 (5th Cir. 1979)
(SMU). This information, without a protective order,
may come out at summary judgment or in other court
filings. So the order is effectively unreviewable on
appeal from the final judgment. See Parker, 835 F.3d
at 1367.
Because both rulings are valid collateral orders,
they do not merge into the final judgment. Burton
therefore does not apply. And since this appeal
remains live, we now turn to the merits.
B.
First is the ruling denying the pseudonymous
appellants leave to proceed under pseudonyms. We
review a district court’s ruling on a party’s use of a
pseudonym for abuse of discretion. Plaintiff B, 631
F.3d at 1315; Doe v. Stegall, 653 F.2d 180, 184 (5th Cir.
Unit A Aug. 1981). This is an “extremely limited and
highly deferential” standard of review. In re Clerici,
481 F.3d 1324, 1331 (11th Cir. 2007). It allows “a zone
of choice within which” the district court “may go
either way.” United States v. Frazier, 387 F.3d 1244,
1259 (11th Cir. 2004) (en banc). We must affirm the
district court’s choice “unless we find that the district
court has made a clear error of judgment, or has
applied the wrong legal standard.” Id. This is so “even
if we would have gone the other way had the choice
been ours to make.” S.E.C. v. ETS Payphones, Inc., 408
F.3d 727, 733 (11th Cir. 2005) (per curiam).
“Generally, parties to a lawsuit must identify
themselves” in the pleadings. Frank, 951 F.2d at 322.
Federal Rule of Civil Procedure 10(a) provides that
“every pleading” in federal court “must name all the
parties.” The rule does not merely further
administrative convenience—“[i]t protects the public’s

14a
legitimate interest in knowing all of the facts involved,
including the identities of the parties.” Plaintiff B, 631
F.3d at 1315.
Yet the rule is not absolute. A party may proceed
anonymously in federal court by establishing “a
substantial privacy right which outweighs the
customary
and
constitutionally-embedded
presumption of openness in judicial proceedings.” Id.
at 1315–16 (internal quotation mark omitted). This is,
however, a narrow exception. Parties may use
“fictitious name[s]” only in “exceptional case[s].”
Frank, 951 F.2d at 323.
We have said that the “first step” in deciding
whether privacy trumps publicity is to apply the “three
factors analyzed” in SMU. Plaintiff B, 631 F.3d at
1316. Those factors include whether the party seeking
anonymity (1) is challenging government activity; (2)
would be compelled, absent anonymity, to disclose
information of utmost intimacy; or (3) would be
compelled, absent anonymity, to admit an intent to
engage in illegal conduct and thus risk criminal
prosecution. See id.
But we have made clear that this is only the first
step. Along with these factors, a court “should
carefully review all the circumstances of a given case
and then decide whether the customary practice of
disclosing the plaintiff’s identity should yield to the
plaintiff’s privacy concerns.” Id.5 Other factors to
5 Given this rule, we note that, in reality, the SMU factors do
not constitute a “first” step in the sense that either party can win
at that step alone. Though a court must consider the SMU factors
(and may well decide to consider them first), our mandate that a

15a
consider include whether the party seeking anonymity
is a minor or faces a real threat of physical harm
absent anonymity. See id.; see also Stegall, 653 F.2d at
186. The court should also analyze whether the party’s
requested anonymity poses a unique threat of
fundamental unfairness to the defendant. See SMU,
599 F.2d at 713 (listing examples). Indeed, a
defendant’s “general plea for ‘openness’ is not
convincing” when stacked against “strong evidence”
supporting a need for anonymity. Plaintiff B, 631 F.3d
at 1318.
Turning to the analysis, we start with the
pseudonymous appellants’ claim that the district court
erred when it gave them the burden of justifying their
pseudonyms. In their eyes, the district court granted
them leave to proceed under pseudonyms in its
protective order granting private fact protections. The
pseudonymous appellants thus claim that Chiquita—
as the party seeking to modify the protective order—
bore the burden of establishing good cause for the
modification. See F.T.C. v. AbbVie Prods. LLC, 713
F.3d 54, 66 (11th Cir. 2013).
We disagree. Nowhere in the protective order did
the district court grant the pseudonymous appellants
leave to proceed anonymously. As the district court
recognized in a later order, it never considered the
propriety of pseudonyms until Chiquita moved to
preclude the use of pseudonyms. Thus, the
court must consider “all the circumstances of a given case” makes
clear that the SMU factors are merely a few of many factors that
a court must consider. See Plaintiff B, 631 F.3d at 1316. In
practice, then, whether a party’s right to privacy overcomes the
presumption of judicial openness is a totality-of-thecircumstances question.

16a
pseudonymous appellants bore the burden to
establish, in the first instance, that their privacy
rights outweigh the presumption of judicial openness.
See Plaintiff B, 631 F.3d at 1315–16.
Because the district court did not make an error
of law, we can vacate only if the district court made a
clear error of judgment. Given this record, we hold
that the district court acted within its “zone of choice”
when it held that the pseudonymous appellants failed
to show that their privacy rights outweigh the
presumption of judicial openness. See Frazier, 387
F.3d at 1259.
To start, the district court had ample comparator
evidence to support its ruling. For over a decade,
hundreds of plaintiffs have litigated this case under
their true names, and yet nothing in the record
suggests that they have faced paramilitary retaliation.
We of course know that different litigants may face
different risks of harm; the pseudonymous appellants
could face a greater risk of paramilitary retribution
than their named co-plaintiffs. But the pseudonymous
appellants gave no evidence to establish that they in
fact face a greater risk of harm. So the district court
was free to consider the named plaintiffs as
comparators when weighing the pseudonymous
appellants’ risk of harm against the presumption of
judicial openness.
To be sure, the pseudonymous appellants claim
that there is specific evidence of harm here:
Paramilitaries allegedly threatened and attacked a
named bellwether plaintiff and her family four months
after her deposition. Yet the district court reasonably
rejected this inference. True, no one seems to dispute
that someone threatened and attacked the bellwether

17a
plaintiff and her family. But the only credible evidence
to suggest that paramilitaries assaulted her and her
family for her role here is temporal proximity. A fourmonth connection, however, is shaky support standing
alone. And there is evidence pointing the other way.
For example, the bellwether plaintiff’s deposition was
privileged and highly confidential, suggesting that
paramilitaries could not have known about the
deposition. There is also evidence showing that the
alleged incidents were part of a domestic dispute
unrelated to this litigation. So the district court acted
within its discretion when it held that there was
“insufficient evidence of a causal connection between
the . . . attack and litigation activity in this MDL
proceeding to justify continued use of pseudonyms.”6
Lacking specific evidence, the pseudonymous
appellants cite general evidence showing that those
who oppose paramilitary groups or paramilitaryaffiliated entities face risks of paramilitary violence.
But this evidence does not compel the conclusion that
the MDL plaintiffs face those risks. Indeed, their
evidence focuses on human rights defenders who
protest paramilitary activity in Colombia, seek land
restitution in Colombia, or oppose paramilitary6 We reject the claim that an affidavit filed by the bellwether
plaintiff’s counsel compelled the district court to find that
paramilitaries threatened and attacked the plaintiff and her
family. The attorney admitted in the affidavit that he has no
firsthand knowledge of the incidents; he drew his statements
solely from the secondhand accounts of nameless investigators in
Colombia. The attorney also asserted that paramilitaries were
presumably to blame, yet he gave no meaningful support for this
presumption. Given these deficiencies, the district court was free
to give the affidavit little weight.

18a
affiliated entities in Colombia. The evidence does not
compel the finding that litigants pursuing tort claims
against a paramilitary-affiliated entity in the United
States face similar risks of harm.7
Last, we reject the idea that the court’s
pseudonym ruling conflicts with its forum non
conveniens ruling. We do so for a few reasons. For one,
a forum non conveniens analysis differs from a
pseudonym analysis. Compare Ford v. Brown, 319
F.3d 1302, 1306–07 (11th Cir. 2003) (outlining the
forum non conveniens analysis), with Plaintiff B, 631
F.3d at 1313–18 (outlining the pseudonym analysis).
For another, the court’s statements there were not
factual findings; because the forum non conveniens
order came on a motion to dismiss, the court took the
plaintiffs’ allegations as true and construed all the
evidence in their favor. See Doc. 1194 at 4. That
plaintiff-friendly standard diverges from the
defendant-friendly pseudonym standard. Finally, the
court entered the forum non conveniens order over two
years before it entered its pseudonym order. During
that time, hundreds of plaintiffs continued to litigate
under their true names, yet none—as far as this record
shows—suffered paramilitary retribution. As a result,

7 The pseudonymous appellants also contend that the district
court erred in failing to consider the heightened publicity they
will face as the case moves toward trial. We’re not convinced that
the district court failed to consider this argument, as the court
said in its order that it had considered all the proffered
arguments. But at any rate, the pseudonymous appellants failed
to support this argument with evidence. On this record, their
publicity claim is speculative and is not enough to justify vacatur
for abuse of discretion.

19a
the district court’s forum non conveniens ruling did not
compel a different pseudonym ruling.8
C.
We now turn to the modification of the protective
order, which lifted the appellants’ protections for
private facts. We review a district court’s decision to
modify a protective order for abuse of discretion.
AbbVie, 713 F.3d at 61. The district court did not abuse
its discretion here.
We begin with a review of the law. Federal Rule of
Civil Procedure 26(c) allows a court to issue a
protective order upon a finding of good cause. See Fed.
R. Civ. P. 26(c) (“The court may, for good cause, issue
[a protective order].”). The plain text of the rule
suggests that a district court must find good cause to
issue a protective order. See id. But as we’ve
recognized, district courts often issue stipulated
protective orders without finding good cause. See Chi.
Tribune Co. v. Bridgestone/Firestone, Inc., 263 F.3d
1304, 1307 (11th Cir. 2001) (per curiam).

8 We also dismiss the pseudonymous appellants’ claim that the
district court erred because it identified no “unique threat” that
their anonymity poses to Chiquita. Though we agree that their
anonymity does not prejudice Chiquita since it knows the
pseudonymous appellants’ identities, prejudice is just one of
many factors that a court should consider. See Plaintiff B, 631
F.3d at 1316. Given the wealth of evidence undercutting the
pseudonymous appellants’ risk of harm, the little evidence
establishing it, and the presumption of judicial openness, the
court acted within its discretion when it denied anonymity, even
without a showing of prejudice.

20a
Some say that these stipulated orders violate Rule
26(c)’s good cause mandate.9 But it seems that we, at
least, have acknowledged the practice. See id. In
Chicago Tribune, we considered a motion to modify a
stipulated protective order. Id. at 1308–09. In the
motion, a post-settlement intervenor sought to remove
protections that the original parties had agreed to in a
stipulated order. Id. at 1308–10. Noting the difference
between a protective order entered for good cause and
a stipulated order, we expressed no issue with the
stipulated order. See id. at 1307. Instead, we
recognized that the party seeking continued protection
from the stipulated order (i.e., the party opposing the
modification) had never established good cause for the
protection in the first place. See id. For this reason, we
placed the burden of establishing good cause in the
first instance on the party seeking the protection. See
id. at 1313. Chicago Tribune thus creates a bright-line
rule: When faced with a motion to modify to a
stipulated protective order, the party seeking the
stipulated order’s protection must satisfy Rule 26(c)’s
good cause standard. The burden differs, though,
when a court enters a disputed protective order after

See, e.g., Jepson, Inc. v. Makita Elec. Works, Ltd., 30 F.3d 854,
858 (7th Cir. 1994) (“In deciding whether to issue a stipulated
protective order, the district court must independently determine
if ‘good cause’ exists.”); Pansy v. Borough of Stroudsburg, 23 F.3d
772, 785 (3d Cir. 1994) (noting that, “[d]isturbingly, some courts
routinely sign orders which contain confidentiality clauses
without considering the propriety of such orders, or the
countervailing public interests which are sacrificed by the
orders”); Procter & Gamble Co. v. Bankers Trust Co., 78 F.3d 219,
229 n.1 (6th Cir. 1996) (Brown, J., dissenting on other grounds)
(“‘Good cause’ must, however, still be shown for the court to issue
a stipulated order [under Fed. R. Civ. P. 26(c)].”).
9

21a
finding good cause. When a party disputes a protective
order, the plain language of Rule 26(c) applies—the
party seeking the protection must establish good cause
for the protection. See Fed. R. Civ. P. 26(c). And once a
party has established good cause under Rule 26(c), the
party moving to modify the protective order bears the
burden to establish good cause for the modification.
See AbbVie, 713 F.3d at 66 (holding that “[a] party who
has already shown good cause . . . in the first instance
should not bear the burden of showing good cause once
again if the same opposing party seeks modification of
the original protective order”).
Applying these principles, we can discern no
abuse of the district court’s considerable discretion in
modifying its protective order, which lifted the
appellants’ protection of “private facts.” For starters,
the district court interpreted its protective order to
have been stipulated by the parties. Indeed, it said so
at least six times in its order.10 And our case law has
repeatedly held that “[a] district court’s interpretation
of its own order is properly accorded deference on
appeal when its interpretation is reasonable.” In re
Managed Care, 756 F.3d 1222, 1234 (11th Cir. 2014)
(quoting Cave v. Singletary, 84 F.3d 1350, 1354 (11th
Cir. 1996)); see also Foudy v. Indian River Cty.
Sheriff’s Office, 845 F.3d 1117, 1122 (11th Cir. 2017)

The order is captioned “Order . . . Granting in Part and
Denying in Part Motion to Modify Stipulated Protective Order’s
Prohibition . . . .” (emphasis added) The district court later
referred to the order as the parties’ “stipulated Protective Order”
twice, the “agreed-upon Protective Order” the parties submitted,
and a “stipulated agreement” and characterized Chiquita’s
motion as withdrawing its “initial consent” to the protective order
(all emphases added).
10

22a
(“[W]e review a district court’s interpretation of its
own orders for an abuse of discretion . . . .”). The
district court’s interpretation of its own order was
entirely reasonable—the record shows that neither
party ever disputed, challenged, or litigated the
protective order’s restrictions on the disclosure of
information about the appellants in any way. Thus, in
order to be entitled to the continued protection of
“private facts,” the burden plainly fell on the
appellants to establish “good cause.” The district court
found that the appellants failed to do so for the same
reasons that they were not entitled to continue
proceeding under pseudonyms. The problem with their
showing remained the same: in neither instance did
the appellants establish a sufficient nexus between
the claimed threats and the disclosure of their
identities; the proffered facts were neither specific nor
concrete, and the appellants gave no other justification
for their private fact protections. Although the district
court did not specifically cite the governing standard
for “good cause” found in Rule 26(c), we cannot find an
abuse of discretion in its analysis. Two reasons yield
this result: in the first place, it made sense to read
these issues together here because they were factually
and logically intertwined; and second, the district
court’s analysis satisfied the most critical Rule 26(c)
factor—balancing the potential harm to the appellants
against the interests of the other parties in the case.
For one thing, it was entirely reasonable for the
district court to consider jointly whether to modify the
order protecting private facts together with allowing
the pseudonymous appellants to continue under
pseudonyms. Indeed, these issues, at least in this case,
were so tightly woven together that there was little
logical reason to consider them separately. The

23a
appellants gave only one justification for their
pseudonyms and their private fact protections: Fear of
harm from paramilitaries. Once the district court
rejected this reason as unfounded and denied leave to
proceed under pseudonym, the appellants no longer
had a justification to satisfy good cause, and so there
was little reason not to also modify the protective
order.
The district court’s analysis also focused on the
most critical elements governing the application of
Rule 26(c). Among other things, we have asked the
district courts to look at “[1] the severity and the
likelihood of the perceived harm; [2] the precision with
which the order is drawn; [3] the availability of a less
onerous alternative; and [4] the duration of the order,”
In re Alexander Grant & Co. Litig., 820 F.2d 352, 356
(11th Cir. 1987) (per curiam) (quotation omitted), but,
notably, these factors are not exhaustive, see id.
(“[T]he sole criterion for determining the validity of a
protective order is the statutory requirement of ‘good
cause’ . . . . [Which is] difficult to define in absolute
terms [but] generally signifies a sound basis or
legitimate need to take judicial action.”). Furthermore,
we have required the trial courts to engage in the
“balancing of interests” under Rule 26(c). Farnsworth
v. Procter & Gamble Co., 758 F.2d 1545, 1547 (11th
Cir. 1985).
The district court engaged in balancing sufficient
to satisfy Rule 26(c), as it weighed the appellants’
safety interests against Chiquita’s interests in
administrative feasibility. Further, when we review
the entire record, including the protective order and
the district court’s order dissolving part of it, there can
be no question that the court’s order was drawn with

24a
precision,
effectively
reviewed
less
onerous
alternatives, and precisely delimited the duration of
the order.
Indeed, the trial court found that the evidence
presented by the appellants supported only “a vague
fear [of] retaliation or bias against ‘human right[s]
defenders’ . . . but [did] not explain how their role in
this lawsuit . . . would implicate the same interests as
those triggered by ‘human right[s] defenders’ in
present-day Colombia.” The appellants’ “generalized,
subjective assertions of fear” were simply not “the kind
of risk of physical or other injury” required to treat
them differently than other plaintiffs. Much the same
analysis was applicable in determining “good cause”
under Rule 26(c). See Gulf Oil Co. v. Bernard, 452 U.S.
89, 102 n.16 (1981) (“To establish ‘good cause’ for a
protective order under Federal Rule of Civil Procedure
26(c), the courts have insisted on a particular and
specific demonstration of fact, as distinguished from
stereotyped and conclusory statements.” (quotation
omitted and alterations adopted)). And without a
distinct concrete harm justifying good cause, the
appellants were no more entitled to protection from
disclosure of their identities than they were to file
pleadings under pseudonyms.
In sum, then, we see little reason to remand this
issue back to the district court, since the district court
weighed the critical factors and did not abuse its
discretion in finding no basis to protect either the
pseudonyms or the appellants’ private facts.
Accordingly, we AFFIRM.

25a
APPENDIX B
________________________________
IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF FLORIDA
Case No. 08-md-01916-MARRA
___________________________
In Re: Chiquita Brands International, Inc. Alien Tort
Statute and Shareholder Derivative Litigation
_____________________________
This Document Relates to:
ATS ACTIONS
07-60821-CIV-MARRA (Carrizosa)
08-80421-CIV-MARRA (N.J. Action) (Does 1-11)
08-80465-CIV-MARRA (D.C. Action) (Does 1-144)
08-80508-CIV-MARRA (Valencia)
08-80480-CIV-MARRA (N.Y. Action) (Manjarres)
10-60573-CIV-MARRA (Montes)
10-80652-CIV-MARRA (D.C. Action) (Does 1-976)
17-81285-CIV-MARRA (D.C. Action) (Does v. Hills)
18-80248-CIV-MARRA (John Doe 1)
___________________________
ORDER GRANTING DEFENDANTS’ MOTION
TO PRECLUDE CONTINUED USE OF
PSEUDONYMS BY ATS PLAINTIFFS
SELECTED FOR BELLWETHER TRIALS AND
GRANTING IN PART AND DENYING IN PART
MOTION TO MODIFY STIPULATED
PROTECTIVE ORDER’S PROHIBITION

26a
AGAINST DISCLOSURE OF PRIVATE FACTS
CONCERNING BELLWETHER PLAINTIFFS
[DE 2253]
This matter is before the Court upon Defendants’
Motion to Preclude Continued Use of Pseudonyms by
those ATS Plaintiffs selected for summary judgment
briefing and bellwether trials, and to further eliminate
the prohibition against disclosure of “private facts,” as
broadly defined in the parties’ stipulated Protective
Order as to these ATS Plaintiff groups [DE 2253].
Having considered the Motion, in conjunction with the
Oppositions of the non-Wolf Plaintiffs [DE 2277] and
Wolf Plaintiffs [DE 2273], and Defendants’ Reply [DE
2292], the Court has determined to grant the motion
and to modify the protective order accordingly.
I.

Procedural History and Facts

Certain ATS Plaintiff groups now subsumed in
this MDL proceeding successfully applied for
permission to file their initial complaints under
pseudonyms based on perceived concerns for their
physical safety and fear of violent reprisal from
Colombian terror groups allegedly involved in the
torture and murder of their family members
(“Pseudonymous Plaintiffs”). The Pseudonymous
Plaintiffs are drawn from various member cases in
this MDL proceeding, and include the New Jersey
Plaintiffs represented by Attorney Marco Simons,1 as

1 John Doe 1 et al. v. Chiquita Brands Int’l, Inc., et al., Case 0703406-JMV-JBC (D. N.J.); Case No. 08-80421- CIV-MARRA (N.J.
Action (Does 1-11).

27a
well as certain D.C. Plaintiffs represented by Attorney
Paul Wolf.2
Previously, at the commencement of discovery
proceedings, the parties submitted an agreed-upon
Protective Order [DE 1389] which recognized the need
for protection against disclosure of private data
regarding the ATS Plaintiff groups and banned the
public disclosure of any “private facts” relating to
those ATS Plaintiffs, regardless of whether the
Plaintiff proceeded under a pseudonym or under his or
her true name in this litigation. Since that time, the
Court has not had occasion to revisit the justification
for use of pseudonyms in this proceeding, although it
has consistently permitted the rather cumbersome
process of filing heavily-redacted documents and
parallel unredacted documents (under seal) in keeping
with the parties’ stipulated agreement to eliminate
identifying data, as a security measure, from the
public portion of the court file.
At this juncture, Defendants have withdrawn
their initial consent to these procedures, and to
Plaintiffs’ continued use of anonymity, at least as to
those Plaintiffs selected for summary judgment
briefing and bellwether trials. Defendants specifically
ask the Court to now revisit the question of whether
these Plaintiffs may continue to proceed under
pseudonyms in light of (1) the comparative
experiences of the named and unnamed ATS
plaintiffs, given that hundreds of other ATS Plaintiffs
from the Montes, Carrizosa, and Manjarres groups

Jane/John Does 1-144 v. Chiquita Brands International Inc.,
Case No. 07-CV01048-PLF (D.D.C.); Case NO. 08- 80465-CIVMARRA (D. C. Action) (Does 1-144).
2

28a
have prosecuted their claims under their true names
since their Complaints were filed over ten years ago
without incident; (2) the evolving and near complete
demobilization of the AUC in Colombia; and (3) the
lack of any concrete evidence of specific threats or
episodes of violent retaliation experienced by any ATS
Plaintiff asserting a need to continue to proceed
anonymously.
In a related vein, Defendants seek to modify the
terms of the previously-entered Protective Order [DE
1389, Protective Order, para. 1(a)(ii)], by eliminating
its sweeping prohibition against public disclosure of
“private facts” regarding any ATS Plaintiff (including
named ATS Plaintiffs), a requirement which has
resulted in heavily-redacted briefing and evidentiary
filings in order to remove any potentially identifying
information from public view, including all financial,
medical, psychological, employment, and educational
information relating to Plaintiffs, as well as
interpersonal relationship data.
Opposing the motion, the Wolf Plaintiffs do not
come forward with any specific evidence of threatened
or actual physical harm visited on any of the
Pseudonymous Plaintiffs as a result of their
participation in this litigation. Instead, these
Plaintiffs focus on the particularly heinous nature of
the underlying abductions and killings of their family
members, observing with understandable alarm that
in most of the pseudonymous Plaintiff groups, and in
all of the bellwether pseudonymous groups, the
perpetrators (alleged AUC operatives) have never
been punished and presumably remain at large.
Further, they contend that violence against social
leaders and human rights defenders in Colombia has

29a
become worse, not better, since the inception of the
litigation, and supply hearsay data to this effect,
apparently operating on the theory that their status
as victims of AUC abuses during the Colombian civil
war is comparable to that of “human rights defenders,”
rendering them equally attractive targets for reprisal
by former or neoparamilitary groups still existing in
Colombia.
The non-Wolf ATS Plaintiffs offer similar
arguments, contending that the same dangerous social
conditions in Colombia which prompted the court to
deny the Defendant’s forum non conveniens motion
still exist and justify the continued protection of
Plaintiff’s identities as parties to this litigation, even
in the context of this U.S. federal district court-based
litigation. Also likening their litigant status to that of
“human rights defenders” and “social leaders” in
Colombia who have recently been under attack for
speaking out against new groups or gangs allegedly
comprised of former paramilitaries and guerillas, the
non-Wolf ATS Plaintiffs also contend it is unsafe for
them to proceed publicly with their claims against
Chiquita in this MDL proceeding, noting that Chiquita
is accused of funding the dangerous paramilitaries
who harmed their family members and who may sense
a threat against a common interest posed by the
claims against Chiquita.
Notably, this ATS Plaintiff group also adduces
evidence of one instance, involving a named ATS
Plaintiff in the Manjarres suit, whose family was
attacked in Colombia several months after the

30a
conclusion of her Florida deposition in this lawsuit.3
Plaintiffs acknowledge that the investigation into
those attacks is ongoing, and do not suggest any
premise for drawing a causal connection other than
the temporal proximity of the two events.
Chiquita counters that Plaintiffs’ assertions
regarding heightened dangers for human right
defenders in Colombia is pure hearsay, and that in any
event, this data is entirely irrelevant to the current
discussion because there is no evidence that Plaintiffs’
claims against Chiquita and former Chiquita
executives in the United States implicates the same
threat to the interests of paramilitary or neoparamilitary groups in Colombia as that posed by
human rights defenders in Colombia. Defendants
note, in this regard, that Plaintiffs have not sued the
AUC as an organization, any front of the AUC, any
former commander of the AUC, or even any former
member of the AUC whom they believe killed their
decedents. Without an AUC-related defendant or
common AUC interest implicated by the claims
The family of Nancy Mora Lemus, a named bellwether
Plaintiff in the Manjarres action, 08-80480-CIV-MARRA, (New
York Action) was allegedly the subject of a series of attacks in
Colombia in July 2018, a few months after Ms. Lemus’ March
2018 deposition in Florida. Due to the temporal proximity of these
events, Plaintiffs posit a suspected causal connection, although
Ms. Lemus’ attorney, Jonathan Reiter, has relayed these facts in
a declaration based on his “current understanding of the facts
surrounding these attacks, as they have been communicated to
me by my investigators in Colombia.”) [DE 2277-34, para. 3).
Chiquita argues that the entire deposition transcript was
designated as “highly confidential,” and that there is no reason to
believe that any participant in the deposition failed to maintain
the required confidentiality, rendering it unlikely that the
litigation event had any connection with the subsequent attacks.
3

31a
against Chiquita in this litigation, Defendants
contend there is simply no logical reason for former
AUC members or any new AUC-like-groups to sense
any threat to their interests or to retaliate against any
ATS Plaintiff because of their participation in this suit
and pursuit of claims against Chiquita.
The Court agrees with the essential logic
underpinning Defendants’ position and finds no
continued justification for the use of pseudonyms by
the select Plaintiffs groups who initially elected to
proceed anonymously in this litigation. This is not to
say that these Plaintiffs or their families, sadly and
most unfortunately, may yet be targets of ongoing
paramilitary or neoparamilitary abuses in Colombia,
but without some evidence logically connecting their
status as litigants in this MDL proceeding with a
heightened risk of physical danger from such attacks,
there is simply no legal basis to permit their continued
use of pseudonyms in derogation of the
constitutionally-premised presumption of openness in
judicial proceedings in place in our federal system.
II.

Discussion

Parties to a lawsuit must generally identify
themselves in their respective pleadings. Doe v. Frank,
951 F.2d 320, 322 (11th Cir. 1992) (citing Southern
Methodist Univ. Ass’n of Women Law Students v.
Wynne & Jaffe, 599 F.2d 707, 712 (5th Cir. 1979)).4
This rule serves to protect the public’s legitimate
interest in knowing all of the facts surrounding court
proceedings, including the identities of the parties,
The Federal Rules of Civil Procedure require that complaints
state the names of parties and make no provision for
pseudonymous litigation. Fed. R. Civ. P. 10(a).
4

32a
Frank, 951 F.2d at 322, and it is, accordingly, the
exceptional case in which a plaintiff may proceed
under a fictitious name. Roe v. Aware Woman Cntr. for
Choice, Inc., 253 F.3d 678, 688 (11th Cir. 2001) (citing
Frank, 951 F.2d at 323). In exercising its discretion to
allow a plaintiff to proceed anonymously, the district
court is charged with determining whether the
plaintiff has a substantial privacy right which
outweighs the “customary and constitutionallyembedded presumption of openness in judicial
proceedings.” Frank, 951 F.2d at 322. Examples of
situations justifying the use of pseudonyms include (1)
cases involving matters of a highly sensitive and
personal nature; (2) cases where plaintiffs would be at
risk of real physical danger should they disclose their
identity; (3) cases where the injury litigated against
would be incurred as a result of the disclosure of the
plaintiff’s identity. Id. at 324. Where, as here, a
plaintiff’s desire to proceed anonymously is based on
the second category, fear of retaliation, the court’s
review properly focuses on (1) the severity of the
threatened harm; (2) the reasonableness of the
anonymous party’s fears and (3) the anonymous
party’s vulnerability to such retaliation. Does I
through XXIII v Advanced Textile Corp, 214 F.3d 1058
(9th Cir. 2000).
The Pseudonymous Plaintiffs in this case argue
that their identities should remain confidential
because they believe they or their families are still
being targeted by the AUC or new AUC-like groups in
Colombia, and they fear they will experience violent
reprisal if the AUC or their allies discovery they are
participating in this lawsuit which arises out of
paramilitary abuses, allegedly fueled by Chiquita,
which occurred during the Colombian civil war. These

33a
assertions, and the deposition testimony cited as
support, however, do not show the kind of risk of
physical or other injury to the Pseudonymous
Plaintiffs that is required to permit them to continue
to proceed under pseudonyms. Plaintiffs generally
allege a vague fear or retaliation or bias against
“human right defenders” and community social
leaders based on the current persecution of such
groups in Colombia, but they do not explain how their
role in this lawsuit, as victims of AUC abuses dating
back to the Colombian civil war, would implicate the
same interests as those triggered by “human right
defenders” in present-day Colombia.
With the exception of a single (named) Manjarres
Plaintiff,5 Plaintiffs advance generalized, subjective
assertions of fear at the hands of former or neoparamilitary groups in Colombia. While the Court is
most sympathetic to these concerns, it finds that the
presumption of openness in judicial proceedings
outweighs the interests presented by Plaintiffs in
support of their request to continue anonymously and
shall grant Defendantsd’ motion to require public
disclosure of the Plaintiffs’ identities. Doe v. Frank,
951 F.2d 320, 324 (11th Cir. 1992). See e.g. Doe v.
Drummond Co. ,2010 WL 9450757 (N.D. Ala. 2010)
(disallowing continued use of pseudonyms by victims

The Court does not find sufficient evidence of a causal
connection between the Mora attack and litigation activity in this
MDL proceeding to justify continued use of pseudonyms by the
Pseudonymous In an abundance of caution, the Court will,
however, leave the protective order provisions banning disclosure
of “private facts” intact as to this Manjarres plaintiff, without
prejudice for the defendant to renew the issue after presentation
of a more developed evidentiary record concerning the attacks.
5

34a
of AUC abuses, finding generalized and always
present fears of violent reprisal or death -- applicable
regardless of plaintiffs’ participation in the suit –
insufficient to outweigh customary presumption of
openness); Qualls v. Rumsfeld, 228 F.R.D. 8 (D. D.C.
2005) (soldiers serving in Iraq would not be allowed to
proceed pseudonymously in litigation challenging
validity of Stop Loss program); Sandberg v. Vincent,
319 F Supp.2d 422 ( Cal. 2018)( defendant, an alleged
perpetrator of sexual assault, did not show that he or
any non-parties were subject to any plausible risk of
retaliatory physical or mental harm so as to justify
grant of motion to proceed under pseudonym in
negligence action arising from assault).
It is accordingly ORDERED AND ADJUDGED:
1.

Defendants’ motion to preclude the
continued use of pseudonyms, and to
eliminate the restriction against disclosure
of “private facts,” as to those categories of
ATS Plaintiffs selected for summary
judgment briefing and bellwether trial, is
GRANTED.
Persons falling into these categories shall
identify themselves in the public portion of
the Court file within FORTY-FIVE (45)
DAYS from the date of this order, failing
which the Court shall dismiss their claims
with prejudice and without further notice.

2.

Further, as to these categories of ATS
Plaintiffs, the stipulated Protective Order
[DE 1389] is here modified to eliminate the
against disclosure of “private facts.”

3.

As to the named ATS Manjarres Plaintiff
Nancy Mora Lemus only, the Defendants’

35a
motion to modify the prohibition in the
Protective Order against public disclosure of
private facts relating to ATS Plaintiffs is
DENIED.
4.

In light of the foregoing, the Wolf Plaintiffs’
motion to strike Defendants’ motion to
preclude continued use of pseudonyms [DE
2253] is DENIED AS MOOT.

DONE and ORDERED in Chambers at West
Palm Beach, Florida, this 10th day of April, 2019.
/s/ Kenneth A. Marra
KENNETH A. MARRA
United States District Judge

36a
APPENDIX C
________________________________
IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF FLORIDA
Case No. 08-md-01916-MARRA
In Re: Chiquita Brands International, Inc. Alien Tort
Statute and Shareholder Derivative Litigation
_____________________________
This case pertains to:
All ATS ACTIONS
___________________________
PROTECTIVE ORDER
Pursuant to proposed protective orders submitted by
the parties [DE 1373, 1374], and Rule 26(c) of the
Federal Rules of Civil Procedure, the Court enters the
following Protective Order (“Order”) limiting the
disclosure and use of certain discovered information in
this proceeding.
IT IS ORDERED AND ADJUDGED:
1. Designation of Confidentiality:
(a) All documents and information produced in
this litigation either prior to or after the entry of this
Order that:
(i) contain, reveal, or are derived from trade
secrets, proprietary information, or confidential
commercial or financial information;
(ii) contain, reveal, or are derived from private

37a
facts of a personal or family nature, including, but not
limited to, plaintiffs’ names, financial, medical,
psychological,
interpersonal
relationships,
employment, or educational information, current and
past home or business addresses, telephone numbers,
and email addresses; or
(iii) contain, reveal, or are derived from
domestic or foreign government sources that are not in
the public domain nor publicly accessible, including,
but not limited to, documents and information
produced by the Department of Justice, Federal
Bureau of Investigation, Securities and Exchange
Commission, and United States Department of State,
and their foreign equivalents or counterparts, may be
designated “CONFIDENTIAL” under the procedures
and standards set forth by this Order by the person or
party producing such documents or information in this
litigation or a party to this litigation (“Producing
Party”). The person or party seeking production of
such documents and information will be referred to in
this Order as the “Receiving Party.” Information
described in sub-sections (i)-(iii) will be referred to in
this Order as “Confidential Information.”
(b) All Confidential Information that a Producing
Party believes to be of such a highly sensitive nature
that disclosure of such information may result in
substantial personal, commercial or financial harm to
a party or its employees, family members, customers,
vendors, consultants, or contractors, or where a
Producing Party believes to be of such a highly
personal nature that disclosure of such information
may expose a party or non-party to risk of any
significant commercial, financial, physical or
emotional harm, may be marked by the Producing

38a
Party as “HIGHLY CONFIDENTIAL” under the
procedures and standards set forth in this Order.
Information described in this sub-section will be
referred to in this Order as “Highly Confidential
Material.”
(c) “Highly confidential” materials shall also
include any Materials, which relate to, include or can
be used to ascertain the true names of the
Pseudonymous Plaintiffs, the decedents, or other third
parties with a reasonable fear of retaliation, including
but not limited any documents disclosing:
(i) The name, identity, or Colombian National
Document number for any Pseudonymous Plaintiff, or
their decedents;
(ii) The name, identity, or Colombian National
Document number for a Third Party covered by
paragraph 1(e) of this Order;
(iii) The present address – including the name
of the village, neighborhood, city, municipality, or
administrative territorial division – or location of the
Pseudonymous Plaintiffs, their family members, or
any Third Party seeking protection pursuant to 1(e) of
this Order.
(iv) Any other information that may be used to
identify and/or threaten the Pseudonymous Plaintiffs,
or other third Parties protected by paragraph 1(e),
including but not limited to any photographic or
pictorial depiction of the physical likeness, or any voice
recording of any such person.
(d) Except for the disclosures required by the
Order Setting Trial Dates and Discovery Deadlines
(D.E. 1361), a Producing Party may redact all but the
last four digits of the social security numbers, drivers’

39a
license numbers, passport identification numbers,
other government issued identification numbers, and
bank account numbers for any individuals from all
documents that it produces.
(e) The Producing Party must have a good faith
basis
for
designating
information
as
“CONFIDENTIAL” or “HIGHLY CONFIDENTIAL.”
(f) A person receiving Confidential Information or
Highly Confidential Information will not use or
disclose the information except for the purposes set
forth in section 3 of this Order.
(g) The provisions of this Order extend to all
Confidential Information and Highly Confidential
Information regardless of the manner in which it is or
was disclosed, including, but not limited to,
documents, disclosure as electronically stored
information, interrogatory answers, responses to
requests for admissions, deposition testimony and
transcripts, deposition exhibits, any other discovery
materials produced by a party in response to or in
connection with any discovery or other proceedings in
this litigation, or any copies, notes, abstracts, or
summaries of the foregoing.
(h) The inadvertent failure to designate
information as “CONFIDENTIAL” or “HIGHLY
CONFIDENTIAL” at the time of production is not a
waiver of the Producing Party’s right to later
designate such information as “CONFIDENTIAL” or
“HIGHLY CONFIDENTIAL.” At the time of making
the later designation, the Producing Party will provide
to the Receiving Party a replacement copy of the
information or materials properly marked and
designated in accordance with this Order. No party
will have violated this Order if, prior to notification of

40a
a later designation, information or materials are
disclosed or used in a manner inconsistent with this
Order. If the information or materials are filed with a
court in the public record prior to the later
designation, the Producing Party may move the Court
for appropriate relief.
(i) A Producing Party may withdraw a
“CONFIDENTIAL” or “HIGHLY CONFIDENTIAL”
designation by providing written notice to all other
parties. A Producing Party may change a designation
from
“CONFIDENTIAL”
to
“HIGHLY
CONFIDENTIAL” or “HIGHLY CONFIDENTIAL” to
“CONFIDENTIAL” by providing written notice to all
other parties.
2. Means of Designating Materials or Documents as
Confidential or Highly Confidential: Documents or
information may be designated as “CONFIDENTIAL”
or “HIGHLY CONFIDENTIAL” within the meaning of
this Order in the following ways:
(a) For documents, the Producing Party must
place
“CONFIDENTIAL”
or
“HIGHLY
CONFIDENTIAL” in the header or footer of each page
of any designated document.
(b) For answers to interrogatories and responses
to requests for admissions, the Producing Party will
place a statement in each specific confidential or
highly confidential answer or response that the
answer or response or specific parts thereof are
designated either “CONFIDENTIAL” or “HIGHLY
CONFIDENTIAL.” In addition the Producing Party
will place on the front page of any set of interrogatory
answers or responses to requests for admissions
contained or revealing Confidential Information or
Highly Confidential Information the following:

41a
“CONTAINS CONFIDENTIAL INFORMATION” or
“CONTAINS
HIGHLY
CONFIDENTIAL
INFORMATION”; and “DESIGNATED PARTS NOT
TO BE USED, COPIED, OR DISCLOSED EXCEPT
AS AUTHORIZED BY COURT ORDER.”
(c) For depositions, counsel for a witness who
provides deposition testimony, or a party participating
in a deposition will identify on the record the portions
of the deposition transcript (including exhibits) that
contain or reveal Confidential Information or Highly
Confidential Information, or will submit a letter
within 14 days of receipt of the final deposition
transcript. All deposition or other testimony will be
treated as “HIGHLY CONFIDENTIAL” until the time
within
which
it
may
be
designated
as
“CONFIDENTIAL” or “HIGHLY CONFIDENTIAL”
has passed. If all or part of a deposition transcript
contains Confidential Information or Highly
Confidential Information, the following will be placed
on the front of the original deposition transcript and
all copies, or in the case of a videotaped deposition, on
the videocassette, videotape container, or DVD:
“CONTAINS CONFIDENTIAL INFORMATION” or
“CONTAINS
HIGHLY
CONFIDENTIAL
INFORMATION”; and “DESIGNATED PARTS NOT
TO BE USED, COPIED, OR DISCLOSED EXCEPT
AS AUTHORIZED BY COURT ORDER.”
(d) For Electronically Stored Information (“ESI”),
defined as information stored or recorded in any form
of electronic or magnetic media (including
information, data, files, images, audio or video
recordings, databases or programs stored on any
digital or analog machine-readable device, computer,
optical or magnetic disc, chip, network, or tape), the

42a
Producing Party will designate the ESI as
“CONFIDENTIAL” or “HIGHLY CONFIDENTIAL” in
a cover letter identifying the information generally.
When feasible the Producing Party will mark the
individual electronic or magnetic media or device with
the appropriate designation. Whenever a party
receives ESI designated as “CONFIDENTIAL” or
“HIGHLY CONFIDENTIAL” and reduces the
material to hardcopy form, such party will mark the
hardcopy with the appropriate designations.
Whenever any ESI designated as “CONFIDENTIAL”
or “HIGHLY CONFIDENTIAL” is copied into another
file, device, or storage media, all copies must be
marked as such in a manner reasonably calculated to
protect the information from disclosure to persons not
authorized to receive such information pursuant to
this Order.
(e) To the extent that any party or counsel creates,
develops, or otherwise establishes any digital or
analog machine-readable device, recording media,
computers, discs, networks, tapes, or any other digital
storage system which contains any information, files,
databases, or programs that contain or reveal
information
designated
“CONFIDENTIAL”
or
“HIGHLY CONFIDENTIAL,” that party and counsel
must take all necessary steps to ensure that access to
such information is properly restricted to those
persons who may access Confidential Information and
Highly Confidential Information pursuant to this
Order.
3. Use of Confidential Information
Confidential Information:

and

Highly

(a) All Confidential Information and Highly
Confidential Information can be used only for the

43a
purposes of prosecuting, defending, or settling this
litigation, or any other related claim against any of the
defendants subsumed within the In Re Chiquita
Brands International Multi-District Litigation, or for
disclosures that are required to be made by law or in
the course of legal process, but will not be used for any
other purpose. Any party may move the Court to
modify these purposes as necessary (for example to
expand use of Confidential and Highly Confidential
Information in any subsequent related litigation).
(b) This Order applies to pretrial discovery and
does not prevent the parties from introducing or using
Confidential Information or Highly Confidential
Information into evidence at trial, subject to any
pretrial order issued by this Court.
(c) This Order does not restrict the disclosure or use
of information that is public record, that is known or
becomes known through means or sources outside of
this litigation, or which has already been obtained
from third-parties prior to entry of this Order;
provided, however, that the parties shall treat publicly
available information relating to the names, addresses
and other identifying or contact information of
plaintiffs residing in Colombia as Highly Confidential
within the meaning of this Confidentiality Agreement,
given the potential risk to the personal safety of
plaintiffs residing in Colombia.
(d) No person, other than those identified in
sections 3 or 4 or those who have executed a
Confidentiality Agreement pursuant to section 7, will
have access to Confidential or Highly Confidential
Information without the approval of the Producing
Party or the Court, nor will any other person be
informed of Confidential Information or Highly

44a
Confidential Information by any person having access
to said information.
4. Disclosure of Confidential Information: Access to
documents
or
information
designated
as
“CONFIDENTIAL” pursuant to this Order is limited
to:
(a) Attorneys for the parties, including members,
associates, counsel, and any other attorneys in private
law firms or nonprofit organizations representing the
parties in this or any other related claim, and their law
firms’ paralegal, investigative, technical, secretarial,
and clerical personnel engaged in assisting in the
litigation, provided that at least one representative of
each private law firm or nonprofit organization
assumes responsibility for the compliance of all such
personnel with the provisions of this Order by
complying with Section 7 of this Order;
(b) Outside photocopying, document storage, data
processing, translation, or graphic production service
providers employed or retained by the parties or their
counsel to assist in this litigation, provided that
section 7 of this Order is complied with;
(c) Any expert, consultant, or investigator retained
by counsel or whom counsel considers retaining for the
purposes of consulting or testifying in this litigation,
and any assistants retained by said experts,
consultants, or investigators for purposes of the
consulting or testifying work in connection with this
litigation, provided that section 7 of this Order is
complied with;
(d) Any translator or interpreter retained by
Counsel for this litigation, provided that Section 7 of
this Order is complied with;

45a
(e) The parties, including any director, officer, or
employee of Chiquita Brands International, Inc.
(“Chiquita”) involved in the defense or resolution of
this litigation provided that Section 7 of this Order is
complied with by any Chiquita employee who is not an
Officer or Director of Chiquita;
(f) Any consultant or independent contractor of
Chiquita involved in this litigation, provided that
section 7 of this Order is complied with;
(g) The Producing Party, any current employee or
agent of the Producing Party, or any other person who,
as appears on the face of the document, authored,
received, or otherwise has been provided access to, in
the ordinary course, the Confidential Information or
Highly Confidential Information sought to be disclosed
to said person;
(h) This Court, the Court’s personnel, court
reporters,
transcriptionists,
translators,
and
interpreters, and other qualified persons including the
Court’s clerical personnel for recording, transcribing,
or translating testimony or argument at any
deposition, hearing, trial, or appeal in this litigation
provided that Section 7 is complied with by anyone
described in this subsection who is not employed by
the Court;
(i) Third-party witnesses and counsel representing
said witnesses, when used in good-faith preparation
for, during the course of, or in review of deposition or
trial testimony, provided that section 7 is complied
with;
(j) Any other person to whom the Producing Party
agrees in writing or on the record in advance of the
disclosure upon the request of another party, provided
that section 7 of this Order is complied with; and

46a
(k) Any other person to whom the Producing
Party chooses to disclose the information.
5. Disclosure of Highly Confidential Information:
Access to documents or materials designated as
“HIGHLY CONFIDENTIAL” is limited to:
(a) Attorneys for the parties, including members,
associates, counsel, and any other attorneys in private
law firms (including nonprofit organizations)
representing the parties in this or any other related
claim, and their law firms’ paralegal, investigative,
technical, secretarial, and clerical personnel engaged
in assisting in the litigation provided that at least one
representative of each private law firm (or nonprofit)
assumes responsibility for the compliance of all such
personnel with the provisions of this Order by
complying with Section 7 of this Order;
(b) Outside photocopying, document storage, data
processing, translation, deposition stenography or
videography, or graphic production service providers
employed or retained by the parties or their counsel to
assist in this litigation, provided that section 7 of this
Order is complied with;
(c) Any expert, consultant, or investigator retained
by counsel or whom counsel considers retaining for the
purposes of consulting or testifying in this litigation,
and any assistants retained by said experts,
consultants, or investigators for purposes of the
consulting or testifying work in connection with this
litigation, provided that section 7 of this Order is
complied with;
(d) The Producing Party, any current employee or
agent of the Producing Party, or any other person who,
as appears on the face of the document, authored,
received, or otherwise has been provided access to, in

47a
the ordinary course, the Confidential Information or
Highly Confidential Information sought to be disclosed
to said person;
(e) This Court, the Court’s personnel, and other
qualified persons including the Court’s clerical
personnel recording, transcribing, or translating
testimony or argument at any deposition, hearing,
trial, or appeal in this litigation;
(f) Third-party witnesses and counsel representing
said witnesses when used in good-faith preparation
for, during the course of, or in review of deposition or
trial testimony, provided that section 7 of this Order is
complied with; such access is permitted only to the
extent that the Highly Confidential Information is
relevant to the anticipated testimony of the witness.
No copies of any document containing Highly
confidential information may be retained by the
witness or counsel and the party taking the deposition
shall notify the Producing Party in advance of the
Highly Confidential Information to be used at the
deposition so that the Producing Party may seek an
order restricting such use;
(g) Any other person to whom the Producing
Party agrees in writing or on the record in advance of
the disclosure upon the request of another party,
provided that section 7 of this Order is complied with;
and
(h) Any other person to whom the Producing
Party elects to disclose the information.
6. Attendance at Depositions: Only those individuals
authorized to receive or have access to Highly
Confidential Information are permitted to attend
depositions in this matter, unless otherwise agreed
upon by the parties and deponent in advance.

48a
7. Notification of the Order and Confidentiality
Agreement:
(a) Unless otherwise agreed in writing by all
parties, all persons who are authorized to receive or
access
Confidential
Information
or
Highly
Confidential Information, other than the court
personnel identified in sections 4 and 5 as exempt from
this requirement must be provided a copy of this Order
prior to the receipt of Confidential Information or
Highly Confidential Information. Prior to disclosure of
this information, such person is required to execute a
Confidentiality Agreement the same or substantially
similar to that attached as Exhibit A.
(b) The originals of executed Confidentiality
Agreements will be maintained by the counsel who
obtained them at least until final resolution of this
litigation. Confidentiality Agreements and the names
of the persons who signed them will not be subject to
discovery except on agreement of the parties or order
of the Court after application upon notice and good
cause shown.
8. Objections to Designations: A failure to object to a
designation
of
documents
or
material
as
“CONFIDENTIAL” or “HIGHLY CONFIDENTIAL” at
the time the material is produced and designated does
not preclude a subsequent challenge to said
designation.
(a) If a party challenges the designation of any
material under this Order, the parties will use their
best efforts to resolve the objections between
themselves. If the parties are unable to reach an
agreement, the objecting party may, with notice to the
Producing Party and within 10 days after providing
the Producing Party with notice of the impasse, apply

49a
to the Court for a ruling that the material should not
be designated as “CONFIDENTIAL” or “HIGHLY
CONFIDENTIAL.”
(b) If such application is made, the Producing
Party bears the burden of establishing that the
designation is proper. If no such application is made,
the designation remains.
(c) Any documents or materials designated as
“CONFIDENTIAL” or “HIGHLY CONFIDENTIAL”
will be treated as such until the Court rules on the
designation and a 21-day period to move the Court to
reconsider or appeal the ruling has expired and no
motion or appeal has been filed.
(d) This Order does not limit the right of a party
to petition the Court for an in camera review of the
material with the disputed designation.
9. Preservation of Rights and Privileges: Nothing in
this Order affects the right of any party or witness to
make any other objection or other response to
discovery requests. Nothing in this Order requires the
production of information or documents that are
privileged or otherwise protected from disclosure. The
parties expressly preserve any and all objections,
privileges and exemptions. Inadvertent disclosure of
such protected materials will not be deemed a waiver
of the rights of any party to raise or challenge any
objection or claim of privilege or protection from
disclosure.
10. Compliance Not An Admission: A party’s
compliance with this Order is not an admission that
any particular documents or material are or are not
confidential, privileged, or admissible at trial.
11. Subpoenas, Other Discovery, or Other Process:

50a
(a) Any Receiving Party in possession of
Confidential Information or Highly Confidential
Information who receives a subpoena, discovery
request, or other process from any person or entity not
a party to this Order, which subpoena or other demand
seeks production or disclosure of Confidential
Information or Highly Confidential Information, will
promptly notify counsel for the Producing Party by
phone and by written notice identifying the
Confidential Information or Highly Confidential
Information sought and including a copy of the
subpoena, discovery request, or other process.
(b) The Receiving Party will inform the person or
entity seeking the Confidential Information or Highly
Confidential Information that the documents or
materials sought are subject to this Order and will
take all reasonable steps to protect the confidentiality
of such information or materials.
(c) The Receiving Party will not produce or disclose
the Confidential Information or Highly Confidential
Information until the last day on which it must be
produced under the terms of the subpoena, discovery
request, or other process, unless the Receiving Party
has been served with written notice, through email or
facsimile, from the Producing Party that the
Producing Party does not object to production of the
Confidential Information or Highly Confidential
Information, that an agreement has been reached
between the party seeking production and the
Producing Party, or that an order has been issued by
a court of competent jurisdiction relieving the
Receiving Party, temporarily or permanently, from its
obligation to produce the Confidential Information or
Highly Confidential Information. If the Producing

51a
Party timely objects to the production of responsive
information, then the Party served with the subpoena
agrees to not produce any documents or information
designated as Confidential or Highly Confidential
until the designating party’s objections to production
have been resolved by agreement or order of a court or
other competent authority.
12. Application to Non-Parties: This Order applies to
any non-party obligated to provide discovery in this
litigation, if that non-party requests the protection of
this Order as to its Confidential Information or Highly
Confidential
Information
and
executes
a
Confidentiality Agreement in the same form or
substantially the same form as the example
agreement attached hereto as Exhibit A.
13. Modification: If any party finds that any term of
this Order impedes its ability to prepare or present its
case or is otherwise objectionable, that party may
apply to the Court for modification of and relief from
any of the terms of this Order. Stipulations may be
made between counsel for the parties as to the
application of this Order to specific situations,
provided that such stipulations are recorded in writing
or contained in the record of any oral proceeding.
14. Objections: Nothing in this Order prevents nonparties from submitting objections to the Court.
15. Inadvertent Disclosure to a Party:
(a) If a Producing Party inadvertently discloses
information subject to a claim of privilege or immunity
from disclosure, the disclosure of said information will
not constitute or be deemed a waiver or forfeiture of
any claim of privilege or immunity from disclosure
which the Producing Party would otherwise be
entitled to assert.

52a
(b) If a Producing Party inadvertently discloses
information subject to a claim of privilege or immunity
from disclosure, the Producing Party must notify the
Receiving Party in writing within 7 days of discovering
the inadvertent disclosure. If a Receiving Party
receives materials or information that reasonably
appear to be subject to a claim of privilege or immunity
from disclosure, and it is reasonably apparent that the
materials or information was inadvertently disclosed,
the Receiving Party must refrain from further
examination of the materials and must notify the
Producing Party immediately.
(c) If a Producing Party inadvertently discloses
information subject to a claim of privilege or immunity
from disclosure, the Receiving Party must, unless it
contests the claim of privilege or immunity from
disclosure, within 7 days of receipt of the notice
described in section 15(b), return or destroy all copies
of the documents or materials identified by the
Producing Party as inadvertently disclosed, and
provide a certification from counsel that all materials
or information identified by the Producing Party as
inadvertently disclosed has been returned or
destroyed.
(d) If the Receiving Party contests the claim of
privilege or immunity from disclosure, the Receiving
Party must notify the Producing Party within 3 days
after the Receiving Party receives the notice described
in Paragraph 15(b), and move the Court for an order
compelling disclosure of the inadvertently disclosed
documents or materials within 7 days, after the
Receiving Party notifies the Producing Party that it
contests claim of privilege. Such motion must be filed
under seal pursuant to Local Rule 5.4 and must not

53a
assert the facts or circumstances surrounding the
inadvertent disclosure as grounds for compelling
disclosure. Pending resolution of this motion, the
Receiving Party may not use the materials or
information or disclose it to any person other than
those required by law to be served with a copy of the
sealed motion. Within 7 days of receipt of the notice
that all inadvertently disclosed information has been
returned or destroyed, the Producing Party must
create a privilege log with respect to the information.
(e) The parties may stipulate to extend the time
periods set forth in sections 18(c) and 18(d).
(f) The Producing Party bears the burden of
establishing the privileged or protected nature of the
disclosed information or materials.
16. Inadvertent Disclosure to Third Parties:
(a) If a person bound by this Order or an executed
Confidentiality Agreement inadvertently discloses
Confidential Information or Highly Confidential
Information to a person not authorized to receive such
information, or if a person authorized to receive such
information breaches any of the obligations set forth
in this Order, that person must immediately give
notice to the Producing Party of the disclosure or
breach. A person disclosing the Confidential
Information or Highly Confidential Information must
make every reasonable effort to retrieve the
information and to limit the dissemination or
disclosure of such information.
(b) If a person bound by this Order or an executed
Confidentiality Agreement becomes aware of the
unauthorized disclosure of Confidential Information
or Highly Confidential Information to a non-party,
that person must immediately give notice to the

54a
Producing Party of such disclosure.
(c) Notice given under section 16(a) or (b) must
include a full description of all facts pertaining to the
wrongful disclosure.
(d) Persons who violate this provision of the Order
may be subject to sanctions as provided by statute,
rule, or the inherent power of the Court.
17. Return of Materials:
(a) Within 30 months after the final disposition of
this action, including any appeals or settlements, and
unless otherwise extended by further Court Order, all
documents or materials containing Confidential
Information or Highly Confidential Information will
be returned to counsel for the Producing Party at the
Producing Party’s expense and discretion, or
destroyed. If destroyed, the party undertaking
destruction will certify in writing to the manner, time,
and place of their destruction. The Producing Party
shall provide written notice to the Receiving Party of
its election to require return or destruction of such
information no more than 90 days and no less than 30
days in advance of the required return or destruction.
Failure to give such notice shall be considered an
abandonment of any interest in the information.
Preservation of the documents or materials described
herein beyond the final disposition of this action is for
the express purpose of allowing for the defense of any
possible post litigation disputes.
(b) As to materials that contain or reveal
Confidential Information or Highly Confidential
Information but that constitute or reveal counsel’s
work product, counsel of record will be entitled to
retain such work product in their files, so long as such
files are clearly marked to reflect that they contain or

55a
reveal information subject to this Order. Any such
materials will be maintained in a way that is
reasonably calculated to restrict access to the
materials to the individuals authorized pursuant to
Paragraph 7.
(c) Counsel for all parties will be entitled to retain
pleadings, affidavits, motions, briefs, or other papers
filed with the Court, deposition transcripts, and the
trial record, including exhibits, even if such materials
contain
Confidential
Information
or
Highly
Confidential Information, so long as files containing
such documents are clearly marked to reflect that they
contain or reveal information subject to this Order.
Any such materials will be maintained in a way that
is reasonably calculated to restrict access to the
materials to the individuals authorized pursuant to
Paragraph 7.
18. Documents and Materials Filed with the Court:
Nothing in this Order shall be construed to affect the
admissibility of any document, material or
information at any trial or hearing. Prior to offering
any Confidential or Highly Confidential information
in evidence at trial or any court hearing, or prior to
filing any such information in support of any motion
or other court filing, the party seeking to present the
information shall inform the Court of the Confidential
designation of the document or information and shall
seek a determination by the Court as to whether the
document or information should be received by the
Court under seal. No party will disclose designated
confidential documents or information in open Court
without prior approval of the Court The procedures for
the use of designated CONFIDENTIAL or HIGHLY
CONFIDENTIAL
documents,
materials,
or

56a
information in any filing, during any hearing or during
the trial of this matter will be determined by the
parties and the Court in advance of the filing, hearing
or trial.
19. Binding: The terms of this Order will remain in
effect until the parties agree or the Court orders
otherwise. Any person or entity that has executed a
Confidentiality Agreement pursuant to this Order will
continue to be bound by said Confidentiality
Agreement and this Order until the parties agree or
the Court orders otherwise.
20. Time: All time periods set forth in this Order will
be calculated according to Rule 6 of the Federal Rules
of Civil Procedure as then in effect.
DONE AND ORDERED in Chambers at West Palm
Beach, Florida this 26th day of April, 2017.
/s/ Kenneth A. Marra
KENNETH A. MARRA
United States District Judge

57a
APPENDIX D
________________________________
UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
___________________________
No. 19-11494-CC
___________________________
D.C. Docket Nos. 0:08-md-01916-KAM; 0:08-cv60821-KAM
In Re: Chiquita Brands International, Inc. Alien Tort
Statute and Shareholder Derivative Litigation
___________________________
0:07-cv-60821-KAM
ANTONIO GONZALEZ CARRIZOSA,
JULIE ESTER DURANGO HIGITA,
LILIANA MARIA CARDONA,
MARIA PATRICIA RODRIGUEZ,
ANA FRANCISCA PALAC MORENO, et. Al.,
Plaintiffs-Appellants,
versus
CHIQUITA BRANDS INTERNATIONAL, INC., an
Ohio corporation,
CHIQUITA FRESH NORTH AMERICA LLC, a
Delaware corporation,
Defendants-Appellees,
RODERICK HILLS, et. Al.,
Defendants.

58a
__________________________
9:08-cv-80421-KAM
JOHN DOE I, individually and as representative of
his deceased father JOHN DOE 2,
JANE DOE 1, individually and as representative of
her deceased mother JANE DOE 2,
JOHN DOE 3, individually and as representative of
his deceased brother JOHN DOE 4,
JANE DOE 3, individually and as representative of
her deceased husband JOHN DOE 5,
MINOR DOES #1-4, by and through their guardian
JOHN DOE 6, individually and as representative of
their deceased mother JANE DOE 4,
JOHN DOE 7, individually and as representative of
his deceased son JOHN DOE 8,
JANE DOE 6,
JANE DOE 5,
JANE DOE 7, et. Al.,
Plaintiffs-Appellants,
versus
CHIQUITA BRANDS INTERNATIONAL, INC.,
Defendant-Appellee,
MOE CORPORATIONS 1-10, et. Al.,
Defendants.
__________________________
9:08-cv-80465-KAM
JANE/JOHN DOES (1-144), as Legal Heirs to Peter
Does 1-144, et. Al.,
Plaintiffs-Appellants,

59a
versus
CHIQUITA BRANDS INTERNATIONAL, INC.,
Defendant-Appellee,
DAVID DOES 1-10, et. Al.,
Defendants.
__________________________
9:08-cv-80508-KAM
JOSE LEONARDO LOPEZ VALENCIA, et. Al.
Plaintiffs-Appellants,
versus
CHIQUITA BRANDS INTERNATIONAL, INC., a
New Jersey corporation,
Defendant-Appellee,
MOE CORPORATIONS 1-10, et. Al.,
Defendants.
__________________________
9:17-cv-81285-KAM
DOES, 1-11,
Plaintiffs-Appellants,
versus
CARLA A. HILLS, Personal Representative of the
Estate of Roderick M. Hills,
Defendant.
_______________________
9:18-cv-80248-KAM

60a
JOHN DOE #1, et. Al., individually and as
representative of his deceased father JOHN DOE 2,
Plaintiffs-Appellants,
versus
CHIQUITA BRANDS INTERNATIONAL, INC. a
New Jersey corporation,
Defendant-Appellee,
MOE CORPORATIONS 1-10, et. Al.,
Defendants.
__________________________
Appeal from the United States District Court for the
Southern District of Florida
___________________________
ON PETITION(S) FOR REHEARING AND
PETITION(S) FOR REHEARING EN BANC
___________________________
Before WILSON, MARCUS, and BUSH*, Circuit
Judges.
Per curiam:
___________________________
The Petition for Rehearing En Banc is DENIED, no
judge in regular active service on the Court having
requested that the Court be polled on rehearing en

Honorable John K. Bush, United States Circuit Judge for the
Sixth Circuit, sitting by designation.
*

61a
banc. (FRAP 35) The Petition for Panel Rehearing is
also denied. (FRAP 40)
ORD-46
Date filed: 12/14/2020

